<html>
<title> - OPEN HEARING WITH FORMER FBI DIRECTOR JAMES COMEY</title>
<body><pre>[Senate Hearing 115-99]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-99

           OPEN HEARING WITH FORMER FBI DIRECTOR JAMES COMEY

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         THURSDAY, JUNE 8, 2017

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


         Available via the World Wide Web: http://www.fdsys.gov
                    
                    
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-890 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6700170827041214130f020b174904080a49">[email&#160;protected]</a>                     
                    
                    
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             JOE MANCHIN III, West Virginia
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas
                 MITCH McCONNELL, Kentucky, Ex Officio
                 CHARLES SCHUMER, New York, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                                
                                
                                CONTENTS

                              ----------                              

                              JUNE 8, 2017

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Warner, Hon. Mark R., Vice Chairman, a U.S. Senator from Virginia     3

                                WITNESS

James Comey, Former Director, Federal Bureau of Investigation....     5

 
           OPEN HEARING WITH FORMER FBI DIRECTOR JAMES COMEY

                              ----------                              


                         THURSDAY, JUNE 8, 2017

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
Room SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Committee Members Present: Senators Burr, Warner, Risch, 
Rubio, Collins, Blunt, Lankford, Cotton, Cornyn, McCain, 
Feinstein, Wyden, Heinrich, King, Manchin, Harris, and Reed.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call this hearing to order.
    Director Comey, I appreciate your willingness to appear 
before the committee today and, more importantly, I thank you 
for your dedicated service and leadership to the Federal Bureau 
of Investigation. Your appearance today speaks to the trust we 
have built over the years, and I'm looking forward to a very 
open and candid discussion today.
    I'd like to remind my colleagues that we will reconvene in 
closed session at 1:00 p.m. today and I ask that you reserve 
for that venue any questions that might get into classified 
information. The Director has been very gracious with his time, 
but the Vice Chairman and I have worked out a very specific 
timeline for his commitment to be on the Hill, so we will do 
everything we can to meet that agreement.
    The Senate Select Committee on Intelligence exists to 
certify for the other 85 members of the United States Senate 
and the American people that the intelligence community is 
operating lawfully and has the necessary authorities and tools 
to accomplish its mission and keep America safe. Part of our 
mission, beyond the oversight we continue to provide to the 
intelligence community and its activities, is to investigate 
Russian interference in the 2016 U.S. elections. The 
committee's work continues. This hearing represents part of 
that effort.
    Jim, allegations have been swirling in the press for the 
last several weeks and today's your opportunity to set the 
record straight. Yesterday, I read with interest your statement 
for the record. And I think it provides some helpful details 
surrounding your interactions with the President.
    It clearly lays out your understanding of those 
discussions, actions you took following each conversation, and 
your state of mind. I very much appreciate your candor and I 
think it's helpful as we work through to determine the ultimate 
truth behind possible Russian interference in the 2016 
elections.
    Your statement also provides texture and context to your 
interactions with the President from your vantage point and 
outlines a strained relationship. The American people need to 
hear your side of the story just as they need to hear the 
President's descriptions of events.
    These interactions also highlight the importance of the 
committee's ongoing investigation. Our experienced staff is 
interviewing all relevant parties and some of the most 
sensitive intelligence in our country's possession. We will 
establish the facts, separate from rampant speculation, and lay 
them out for the American people to make their own judgment. 
Only then will we as a Nation be able to move forward and to 
put this episode to rest.
    There are several outstanding issues not addressed in your 
statement that I hope you'll clear up for the American people 
today. Did the President's request for loyalty, your impression 
that the one-on-one dinner of January 27th was, and I quote, 
``at least in part an effort to create some sort of patronage 
relationship,'' or his March 30th phone call asking what you 
could do to lift the cloud of Russia investigation in any way, 
alter your approach to the FBI's investigation into General 
Flynn or the broader investigation into Russia and possible 
links to the campaign?
    In your opinion, did potential Russian efforts to establish 
links with individuals in the Trump orbit rise to the level we 
could define as collusion or was it a counterintelligence 
concern?
    There's been significant public speculation about your 
decision-making related to the Clinton e-mail investigation. 
Why did you decide to publicly announce FBI's recommendations 
that the Department of Justice not pursue criminal charges? You 
have described it as a choice between a bad decision and a 
worse decision. The American people need to understand the 
facts behind your action.
    This committee is uniquely suited to investigate Russia's 
interference in the 2016 elections. We also have a unified, 
bipartisan approach to what is a highly charged partisan issue. 
Russian activities during the 2016 election may have been aimed 
at one party's candidate, but, as my colleague Senator Rubio 
says frequently, in 2018 and 2020 it could be aimed at anyone, 
at home or abroad.
    My colleague Senator Warner and I have worked to stay in 
lockstep on this investigation. We've had our differences on 
approach at times, but I've constantly stressed that we need to 
be a team. And I think Senator Warner agrees with me.
    We must keep these questions above politics and 
partisanship. It's too important to be tainted by anyone trying 
to score political points.
    With that, again I welcome you, Director, and I turn to the 
Vice Chairman for any comments he might have.

 OPENING STATEMENT OF HON. MARK R. WARNER, A U.S. SENATOR FROM 
                            VIRGINIA

    Vice Chairman Warner. Well, thank you, Mr. Chairman. And 
let me start by again actually thanking all the members of the 
committee for the seriousness in which they've taken on this 
task.
    Mr. Comey, thank you for agreeing to come testify as part 
of this committee's investigation into Russia.
    I realize that this hearing has been, obviously, the focus 
of a lot of Washington in the last few days. But the truth is 
many Americans who may be tuning in today probably haven't 
focused on every twist and turn of the investigation. So I'd 
like to briefly describe, at least from this Senator's 
standpoint, what we already know and what we're still 
investigating.
    To be clear, this whole investigation is not about 
relitigating the election. It's not about who won or lost. And 
it sure as heck is not about Democrats versus Republicans. 
We're here because a foreign adversary attacked us right here 
at home, plain and simple, not by guns or missiles, but by 
foreign operatives seeking to hijack our most important 
democratic process--our presidential election. Russian spies 
engaged in a series of online cyber raids and a broad campaign 
of disinformation, all ultimately aimed at sowing chaos to us 
to undermine public faith in our process, in our leadership, 
and ultimately in ourselves.
    And that's not just this Senator's opinion. It is the 
unanimous determination of the entire U.S. intelligence 
community. So we must find out the full story, what the 
Russians did, and, candidly, as some other colleagues have 
mentioned, why they were so successful. And more importantly, 
we must determine the necessary steps to take to protect our 
democracy and ensure they can't do it again.
    The Chairman mentioned elections in 2018 and 2020. In my 
home State of Virginia, we have elections this year, in 2017. 
Simply put, we cannot let anything or anyone prevent us from 
getting to the bottom of this.
    Now, Mr. Comey, let me say at the outset we haven't always 
agreed on every issue. In fact, I've occasionally questioned 
some of the actions you've taken. But I've never had any reason 
to question your integrity, your expertise, or your 
intelligence. You've been a straight shooter with this 
committee and have been willing to speak truth to power, even 
at the risk of your own career, which makes the way in which 
you were fired by the President ultimately shocking.
    Recall we began this entire process with the President and 
his staff first denying that the Russians were ever involved 
and then falsely claiming that no one from his team was ever in 
touch with any Russians. We know that's just not the truth. 
Numerous Trump associates had undisclosed contacts with 
Russians before and after the election, including the 
President's Attorney General, his former national security 
adviser and his current senior adviser, Mr. Kushner.
    That doesn't even begin to count the host of additional 
campaign associates and advisers who've also been caught up in 
this massive web. We saw Mr. Trump's campaign manager, Mr. 
Manafort, forced to step down over ties to Russian-backed 
entities. The national security adviser, General Flynn, had to 
resign over his lies about engagements with the Russians. And 
we saw the candidate himself express an odd and unexplained 
affection for the Russian dictator, while calling for the 
hacking of his opponent.
    There's a lot to investigate. Enough, in fact that then-
Director Comey publicly acknowledged that he was leading an 
investigation into those links between Mr. Trump's campaign and 
the Russian government. As the Director of the FBI, Mr. Comey 
was ultimately responsible for conducting that investigation, 
which might explain why you're sitting now as a private 
citizen.
    What we didn't know was at the same time that this 
investigation was proceeding the President himself appears to 
have been engaged in an effort to influence, or at least co-
opt, the Director of the FBI.
    The testimony that Mr. Comey has submitted for today's 
hearing is very disturbing. For example, on January 27th, after 
summoning Director Comey to dinner, the President appears to 
have threatened the Director's job while telling him, quote, 
``I need loyalty. I expect loyalty.''
    At a later meeting on February 14th, the President asked 
the Attorney General to leave the Oval Office so that he could 
privately ask Director Comey, again quote, ``to see a way clear 
to letting Flynn go.'' That is a statement that Director Comey 
interpreted as a request that he drop the investigation 
connected to General Flynn's false statements. Think about it: 
the President of the United States asking the FBI Director to 
drop an ongoing investigation.
    And after that, the President called the FBI Director on 
two additional occasions, March 30th and April 11th, and asked 
him again, quote, ``to lift the cloud'' on the Russian 
investigation.
    Now, Director Comey denied each of these improper requests: 
the loyalty pledge, the admonition to drop the Flynn 
investigation, the request to lift the cloud of the Russia 
investigation. Of course, after his refusals Director Comey was 
fired.
    The initial explanation for the firing didn't pass any 
smell test. So now Director Comey was fired because he didn't 
treat Hillary Clinton appropriately. Of course, that 
explanation lasted about a day, because the President himself 
then made very clear that he was thinking about Russia when he 
decided to fire Director Comey.
    Shockingly, reports suggest that the President admitted as 
much in an Oval Office meeting with the Russians the day after 
Director Comey was fired. Disparaging our country's top law 
enforcement official as a, quote/unquote, ``nut job.'' The 
President allegedly suggested that his firing relieved great 
pressure on his feelings about Russia.
    This is not happening in isolation. At the same time the 
President was engaged in these efforts with Director Comey, he 
was also, at least allegedly, asking senior leaders of the 
intelligence community to downplay the Russian investigation or 
to intervene with the Director.
    Yesterday, we had DNI Director Coats and NSA Director 
Admiral Rogers, who were offered a number of opportunities to 
flatly deny those press reports. They expressed their opinions, 
but they did not take that opportunity to deny those reports. 
They did not take advantage of that opportunity. In my belief, 
that's not how the President of the United States should 
behave.
    Regardless of the outcome of our investigation into the 
Russia links, Director Comey's firing and his testimony raise 
separate and troubling questions that we must get to the bottom 
of.
    Again, as I said at the outset, I've seen firsthand how 
seriously every member of this committee is taking his work. 
I'm proud of the committee's efforts so far. Let me be clear: 
This is not a witch hunt. This is not fake news. It is an 
effort to protect our country from a new threat that, quite 
honestly, will not go away any time soon.
    So, Mr. Comey, your testimony here today will help us move 
towards that goal. I look forward to that testimony.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Vice Chairman.
    Director, as discussed when you agreed to appear before the 
committee, it would be under oath. I'd ask you to please stand. 
Raise your right hand. Do you solemnly swear to tell the truth, 
the whole truth, and nothing but the truth, so help you God?
    Director Comey. I do.
    Chairman Burr. Please be seated.

 TESTIMONY OF JAMES COMEY, FORMER DIRECTOR, FEDERAL BUREAU OF 
                         INVESTIGATION

    Chairman Burr. Director Comey, you're now under oath.
    And I would just note to members, you will be recognized by 
seniority for a period up to seven minutes. And again, it is 
the intent to move to a closed session no later than 1:00 p.m.
    With that, Director Comey, you are recognized. You have the 
floor for as long as you might need.
    Director Comey. Thank you. Mr. Chairman, Ranking Member 
Warner, members of the committee: Thank you for inviting me 
here to testify today. I've submitted my statement for the 
record and I'm not going to repeat it here this morning. I 
thought I would just offer some very brief introductory remarks 
and then I would welcome your questions.
    When I was appointed FBI Director in 2013, I understood 
that I served at the pleasure of the President. Even though I 
was appointed to a 10-year term, which Congress created in 
order to underscore the importance of the FBI being outside of 
politics and independent, I understood that I could be fired by 
a President for any reason or for no reason at all.
    And on May the 9th, when I learned that I had been fired, 
for that reason I immediately came home as a private citizen. 
But then the explanations, the shifting explanations, confused 
me and increasingly concerned me. They confused me because the 
President and I had had multiple conversations about my job, 
both before and after he took office, and he had repeatedly 
told me I was doing a great job and he hoped I would stay. And 
I had repeatedly assured him that I did intend to stay and 
serve out the remaining six years of my term.
    He told me repeatedly that he had talked to lots of people 
about me, including our current Attorney General, and had 
learned that I was doing a great job and that I was extremely 
well-liked by the FBI workforce.
    So it confused me when I saw on television the President 
saying that he actually fired me because of the Russia 
investigation and learned, again from the media, that he was 
telling privately other parties that my firing had relieved 
great pressure on the Russia investigation.
    I was also confused by the initial explanation that was 
offered publicly, that I was fired because of the decisions I 
had made during the election year. That didn't make sense to me 
for a whole bunch of reasons, including the time and all the 
water that had gone under the bridge since those hard decisions 
that had to be made. That didn't make any sense to me.
    And although the law required no reason at all to fire an 
FBI Director, the Administration then chose to defame me and, 
more importantly, the FBI by saying that the organization was 
in disarray, that it was poorly led, that the workforce had 
lost confidence in its leader.
    Those were lies, plain and simple, and I am so sorry that 
the FBI workforce had to hear them and I'm so sorry that the 
American people were told them. I worked every day at the FBI 
to help make that great organization better. And I say ``help'' 
because I did nothing alone at the FBI. There are no 
indispensable people at the FBI. The organization's great 
strength is that its values and abilities run deep and wide. 
The FBI will be fine without me. The FBI's mission will be 
relentlessly pursued by its people and that mission is to 
protect the American people and uphold the Constitution of the 
United States.
    I will deeply miss being part of that mission, but this 
organization and its mission will go on long beyond me and long 
beyond any particular administration.
    I have a message before I close for my former colleagues at 
the FBI. But first I want the American people to know this 
truth: The FBI is honest. The FBI is strong. And the FBI is and 
always will be independent.
    And now to my former colleagues, if I may. I am so sorry 
that I didn't get the chance to say goodbye to you properly. It 
was the honor of my life to serve beside you, to be part of the 
FBI family. And I will miss it for the rest of my life. Thank 
you for standing watch. Thank you for doing so much good for 
this country. Do that good as long as ever you can.
    And, Senators, I look forward to your questions.
    Chairman Burr. Director, thank you for that testimony, both 
oral and the written testimony that you provided to the 
committee yesterday and made public to the American people.
    The Chair would recognize himself first for 12 minutes, 
Vice Chair for 12 minutes, based upon the agreement we have.
    Director, did the Special Counsel's Office review and/or 
edit your written testimony?
    Director Comey. No.
    Chairman Burr. Do you have any doubt that Russia attempted 
to interfere in the 2016 elections?
    Director Comey. None.
    Chairman Burr. Do you have any doubt that the Russian 
government was behind the intrusions in the DNC and the DCCC 
systems and the subsequent leaks of that information?
    Director Comey. No, no doubt.
    Chairman Burr. Do you have any doubt that the Russian 
government was behind the cyber intrusion in the State voter 
files?
    Director Comey. No.
    Chairman Burr. Do you have any doubt that officials of the 
Russian government were fully aware of these activities?
    Director Comey. No doubt.
    Chairman Burr. Are you confident that no votes cast in the 
2016 Presidential election were altered?
    Director Comey. I'm confident. By the time--when I left as 
Director, I had seen no indication of that whatsoever.
    Chairman Burr. Director Comey, did the President at any 
time ask you to stop the FBI investigation into Russian 
involvement in the 2016 U.S. elections?
    Director Comey. Not to my understanding, no.
    Chairman Burr. Did any individual working for this 
Administration, including the Justice Department, ask you to 
stop the Russian investigation?
    Director Comey. No.
    Chairman Burr. Director, when the President requested that 
you, and I quote, ``let Flynn go,'' General Flynn had an 
unreported contact with the Russians, which is an offense. And 
if press accounts are right, there might have been 
discrepancies between facts and his FBI testimony. In your 
estimation, was General Flynn at that time in serious legal 
jeopardy? And in addition to that, do you sense that the 
President was trying to obstruct justice or just seek for a way 
for Mike Flynn to save face, given he had already been fired?
    Director Comey. General Flynn at that point in time was in 
legal jeopardy. There was an open FBI criminal investigation of 
his statements in connection with the Russian contacts and the 
contacts themselves. And so that was my assessment at the time.
    I don't think it's for me to say whether the conversation I 
had with the President was an effort to obstruct. I took it as 
a very disturbing thing, very concerning, but that's a 
conclusion I'm sure the special counsel will work towards, to 
try and understand what the intention was there and whether 
that's an offense.
    Chairman Burr. Director, is it possible that as part of 
this FBI investigation the FBI could find evidence of 
criminality that is not tied to the 2016 elections, possible 
collusion, or coordination with Russians?
    Director Comey. Sure.
    Chairman Burr. So there could be something that just fits a 
criminal aspect to this that doesn't have anything to do with 
the 2016 election cycle?
    Director Comey. Correct. In any complex investigation, when 
you start turning over rocks, sometimes you find things that 
are unrelated to the primary investigation that are criminal in 
nature.
    Chairman Burr. Director Comey, you have been criticized 
publicly for the decision to present your findings on the e-
mail investigation directly to the American people. Have you 
learned anything since that time that would've changed what you 
said, or how you chose to inform the American people?
    Director Comey. Honestly, no. I mean, it caused a whole lot 
of personal pain for me, but as I look back, given what I knew 
at the time and even what I've learned since, I think it was 
the best way to try and protect the justice institution, 
including the FBI.
    Chairman Burr. In the public domain is this question of the 
Steele dossier, a document that has been around now for over a 
year. I'm not sure when the FBI first took possession of it, 
but the media had it before you had it and we had it.
    At the time of your departure from the FBI, was the FBI 
able to confirm any criminal allegations contained in the 
Steele document?
    Director Comey. Mr. Chairman, I don't think that's a 
question I can answer in an open setting because it goes into 
the details of the investigation.
    Chairman Burr. Director, the term we hear most often is 
``collusion.'' When people are describing possible links 
between Americans and Russian government entities related to 
the interference in our election, would you say that it's 
normal for foreign governments to reach out to the members of 
an incoming administration?
    Director Comey. Yes.
    Chairman Burr. At what point does the normal contact cross 
the line into an attempt to recruit agents or influence or 
spies?
    Director Comey. Difficult to say in the abstract. It 
depends upon the context, whether there's an effort to keep it 
covert, what the nature of the requests made of the American by 
the foreign government are. It's a judgment call based on a 
whole lot of facts.
    Chairman Burr. At what point would that recruitment become 
a counterintelligence threat to our country?
    Director Comey. Again, difficult to answer in the abstract. 
But when a foreign power is using especially coercion or some 
sort of pressure to try and co-opt an American, especially a 
government official, to act on its behalf, that's a serious 
concern to the FBI and at the heart of the FBI's 
counterintelligence mission.
    Chairman Burr. So if you've got a 36-page document of 
specific claims that are out there, the FBI would have to, for 
counterintelligence reasons, try to verify anything that might 
be claimed in there. One, and probably first and foremost, is 
the counterintelligence concerns that we have about blackmail. 
Would that be an accurate statement?
    Director Comey. Yes. If the FBI receives a credible 
allegation that there is some effort to co-opt, coerce, direct, 
employ covertly an American on behalf of the foreign power, 
that's the basis on which a counterintelligence investigation 
is opened.
    Chairman Burr. And when you read the dossier, what was your 
reaction, given that it was 100 percent directed at the 
President-elect?
    Director Comey. Not a question I can answer in an open 
setting, Mr. Chairman.
    Chairman Burr. Okay. When did you become aware of the cyber 
intrusion?
    Director Comey. The first cyber--it was all kinds of cyber 
intrusions going on all the time. The first Russia-connected 
cyber intrusion I became aware of in the late summer of 2015.
    Chairman Burr. And in that timeframe, there were more than 
the DNC and the DCCC that were targets?
    Director Comey. Correct. It was a massive effort to target 
government and nongovernmental--near-governmental agencies like 
nonprofits.
    Chairman Burr. What would be the estimate of how many 
entities out there the Russians specifically targeted in that 
timeframe?
    Director Comey. It's hundreds. I suppose it could be more 
than a thousand, but it's at least hundreds.
    Chairman Burr. When did you become aware that data had been 
exfiltrated?
    Director Comey. I'm not sure, exactly. I think either late 
2015 or early 2016.
    Chairman Burr. And did you, the Director of the FBI, have 
conversations with the last Administration about the risk that 
this posed?
    Director Comey. Yes.
    Chairman Burr. And share with us, if you will, what actions 
they took.
    Director Comey. Well, the FBI had already undertaken an 
effort to notify all the victims, and that's what we consider 
the entities that were attacked as part of this massive spear 
phishing campaign. And so we notified them in an effort to 
disrupt what might be ongoing.
    Then there was a series of continuing interactions with 
entities through the rest of 2015 into 2016, and then 
throughout 2016 the Administration was trying to decide how to 
respond to the intrusion activity that it saw.
    Chairman Burr. And the FBI in this case, unlike other cases 
that you might investigate, did you ever have access to the 
actual hardware that was hacked? Or did you have to rely on a 
third party to provide you the data that they had collected?
    Director Comey. In the case of the DNC, and I believe the 
DCCC, but I'm sure the DNC, we did not have access to the 
devices themselves. We got relevant forensic information from a 
private party, a high-class entity, that had done the work. But 
we didn't get direct access.
    Chairman Burr. But no content?
    Director Comey. Correct.
    Chairman Burr. Isn't content an important part of the 
forensics from a counterintelligence standpoint?
    Director Comey. It is, although what was briefed to me by 
my folks, the people who were my folks at the time, is that 
they had gotten the information from the private party that 
they needed to understand the intrusion by the spring of 2016.
    Chairman Burr. Let me go back, if I can, very briefly, to 
the decision to publicly go out with your results on the e-
mail. Was your decision influenced by the Attorney General's 
tarmac meeting with the former President, Bill Clinton?
    Director Comey. Yes, in an ultimately conclusive way. That 
was the thing that capped it for me that I had to do something 
separately to protect the credibility of the investigation, 
which meant both the FBI and the Justice Department.
    Chairman Burr. Were there other things that contributed to 
that that you can describe in an open session?
    Director Comey. There were other things that contributed to 
that. One significant item I can't, I know the committee's been 
briefed on. There's been some public accounts of it, which are 
nonsense, but I understand the committee's been briefed on the 
classified facts.
    Probably the only other consideration that I guess I can 
talk about in an open setting is at one point the Attorney 
General had directed me not to call it an ``investigation,'' 
but instead to call it a ``matter,'' which confused me and 
concerned me. But that was one of the bricks in the load that 
led me to conclude I have to step away from the Department if 
we're to close this case credibly.
    Chairman Burr. Director, my last question: You're not only 
a seasoned prosecutor, you've led the FBI for years. You 
understand the investigative process. You've worked with this 
committee closely, and we're grateful to you because I think 
we've mutually built trust in what your organization does and 
what we do.
    Is there any doubt in your mind that this committee can 
carry out its oversight role in the 2016 Russian involvement in 
the elections in parallel with the now special counsel that's 
been set up?
    Director Comey. No, no doubt. It can be done. It requires 
lots of conversations, but Bob Mueller is one of this country's 
great, great pros. And I'm sure you all will be able to work it 
out with him to run it in parallel.
    Chairman Burr. I want to thank you once again, and I want 
to turn to the Vice Chairman.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    And again, Director Comey, thank you for your service. Your 
comments to your FBI family I know were heartfelt. Know that, 
even though there are some in the Administration who've tried 
to smear your reputation, you had Acting Director McCabe in 
public testimony a few weeks back and in public testimony 
yesterday reaffirm that the vast majority of the FBI community 
had great trust in your leadership and, obviously, trust in 
your integrity.
    I want to go through a number of the meetings that you 
referenced in your testimony. And let's start with the January 
6th meeting in Trump Tower, where you went up with a series of 
officials to brief the President-elect on the Russia 
investigation. My understanding is you remained afterwards to 
brief him on, again, quote, ``some personally sensitive 
aspects'' of the information you relayed.
    Now, you said after that briefing you felt compelled to 
document that conversation, that you actually started 
documenting it soon as you got into the car. Now, you've had 
extensive experience at the Department of Justice and at the 
FBI. You've worked under Presidents of both parties. What was 
it about that meeting that led you to determine that you needed 
to start putting down a written record?
    Director Comey. A combination of things, I think: the 
circumstances, the subject matter, and the person I was 
interacting with. Circumstances first: I was alone with the 
President of the United States--or the President-elect, soon to 
be President.
    The subject matter: I was talking about matters that touch 
on the FBI's core responsibility and that relate to the 
President--President-elect personally.
    And then the nature of the person: I was honestly concerned 
that he might lie about the nature of our meeting, and so I 
thought it really important to document.
    That combination of things I'd never experienced before, 
but it led me to believe I've got to write it down, and I've 
got to write it down in a very detailed way.
    Vice Chairman Warner. I think that's a very important 
statement you just made. And my understanding is that then, 
again unlike your dealings with Presidents of either parties in 
your past experience, in every subsequent meeting or 
conversation with this President you created a written record.
    Did you feel that you needed to create this written record 
or these memos because they might need to be relied on at some 
future date?
    Director Comey. Sure. I created records after 
conversations, and I think I did it after each of our nine 
conversations. If I didn't, I did it for nearly all of them, 
especially the ones that were substantive.
    I knew that there might come a day when I would need a 
record of what had happened, not just to defend myself, but to 
defend the FBI and our integrity as an institution and the 
independence of our investigative function. That's what made 
this so difficult, is it was a combination of circumstances, 
subject matter, and the particular person.
    Vice Chairman Warner. And so, in all your experience this 
was the only President that you felt like in every meeting you 
needed to document, because at some point, using your words, he 
might put out a non-truthful representation of that meeting?
    Director Comey. That's right, Senator. And as I said in my 
written testimony, as FBI Director I interacted with President 
Obama. I spoke only twice alone in three years, and didn't 
document it. When I was Deputy Attorney General, I had one one-
on-one meeting with President Bush about a very important and 
difficult national security matter. I didn't write a memo 
documenting that conversation either--sent a quick e-mail to my 
staff to let them know there was something going on, but I 
didn't feel with President Bush the need to document it in that 
way, again because the combination of those factors just wasn't 
present with either President Bush or President Obama.
    Vice Chairman Warner. I think that is very significant. I 
think others will probably question that.
    Now, the Chairman and I have requested those memos. It is 
our hope that the FBI will get this committee access to those 
memos so that, again, we can read that contemporaneous 
rendition so that we've got your side of the story.
    Now, I know members have said and press has said that if 
you were--a great deal's been made of whether the President--
you were asked to, in effect, indicate whether the President 
was the subject of any investigation.
    And my understanding is prior to your meeting on January 
6th you discussed with your leadership team whether or not you 
should be prepared to assure then President-elect Trump that 
the FBI was not investigating him personally. Now, my 
understanding is your leadership team agreed with that. But was 
that a unanimous decision? Was there any debate about that?
    Director Comey. Was it unanimous? One of the members of the 
leadership team had a view that, although it was technically 
true we did not have a counterintelligence file case open on 
then-President-elect Trump, his concern was because we're 
looking at the potential--again, that's the subject of the 
investigation--coordination between the campaign and Russia, 
because it was President Trump, President-elect Trump's 
campaign, this person's view was inevitably his behavior, his 
conduct, will fall within the scope of that work, and so he was 
reluctant to make the statement that I made.
    I disagreed. I thought it was fair to say what was 
literally true: There is not a counterintelligence 
investigation of Mr. Trump. And I decided in the moment to say 
it, given the nature of our conversation.
    Vice Chairman Warner. At that moment in time. Did you ever 
revisit that in these subsequent sessions?
    Director Comey. With the FBI leadership team?
    Vice Chairman Warner. With the team--with your team.
    Director Comey. Sure, and the leader who had that view, it 
didn't change. His view was still that it was probably--
although literally true, his concern was it could be misleading 
because the nature of the investigation was such that it might 
well touch--obviously, it would touch the campaign, and the 
person at the head of the campaign would be the candidate. And 
so that was his view throughout.
    Vice Chairman Warner. Let me move to the January 27th 
dinner, where you said, quote, ``The President began by asking 
me whether I wanted to stay on as FBI Director.'' He also 
indicated that lots of people''--again, your words--``wanted 
the job.''
    You go on to say that the dinner itself was seemingly an 
effort to quote, ``have you ask him for your job,'' and create 
some sort of, quote-unquote, ``patronage relationship.''
    The President seems, from my reading of your memo, to be 
holding your job or your possibility of continuing in your job 
over your head in a fairly direct way. What was your impression 
and what did you mean by this notion of a patronage 
relationship?
    Director Comey. Well, my impression--and, again, it's my 
impression. I could always be wrong. But my common sense told 
me that what was going on is either he had concluded or someone 
had told him that you didn't--you've already asked Comey to 
stay and you didn't get anything for it; and that the dinner 
was an effort to build a relationship--in fact, he asked 
specifically--of loyalty in the context of asking me to stay.
    And as I said, what was odd about that is we'd already 
talked twice about it by that point and he'd said, I very much 
hope you'll stay, I hope you'll stay.
    In fact, I just remembered sitting here a third one. When--
you've seen the picture of me walking across the Blue Room. And 
what the President whispered in my ear was, ``I really look 
forward to working with you.'' So, after those encounters----
    Vice Chairman Warner. And that was just a few days before 
you were fired?
    Director Comey. Yeah, that was on the 20--the Sunday after 
the Inauguration.
    The next Friday, I have dinner and the President begins by 
wanting to talk about my job. And so I'm sitting there 
thinking: Wait a minute, three times we've already--you've 
already asked me to stay or talked about me staying. And my 
common sense--again, I could be wrong, but my common sense told 
me what's going on here is that he's looking to get something 
in exchange for granting my request to stay in the job.
    Vice Chairman Warner. And again, we all understand. I was a 
governor, I had people work for me. But this constant requests 
and, again quoting you, him saying that, despite you explaining 
your independence, he kept coming back to ``I need loyalty.'' 
``I expect loyalty.''
    Had you ever had any of those kind of requests before, from 
anyone else you'd worked for in the government?
    Director Comey. No, and what made me uneasy was I'm at that 
point the Director of the FBI. The reason that Congress created 
a ten-year term is so that the Director is not feeling as if 
they're serving with political loyalty owed to any particular 
person. The statue of Justice has a blindfold on because you're 
not supposed to be peeking out to see whether your patron is 
pleased or not with what you're doing.
    It should be about the facts and the law. That's why I 
became FBI Director, to be in that kind of position. So that's 
why I was so uneasy.
    Vice Chairman Warner. Well, let me--let me move on. My 
time's running out. February 14th--again, it seems a bit 
strange. You were in a meeting. And your direct superior, the 
Attorney General, was in that meeting, as well.
    Yet the President asked everyone to leave, including the 
Attorney General to leave, before he brought up the matter of 
General Flynn. What was your impression of that type of action? 
Had you ever seen anything like that before?
    Director Comey. No. My impression was, something big is 
about to happen. I need to remember every single word that is 
spoken. And again, I could be wrong, but I'm 56 years old. I've 
seen a few things. My sense was the Attorney General knew he 
shouldn't be leaving, which is why he was lingering. And I 
don't know Mr. Kushner well, but I think he picked up on the 
same thing. And so I knew something was about to happen that I 
needed to pay very close attention to.
    Vice Chairman Warner. And I found it very interesting that, 
in the memo that you wrote after this February 14th pull-aside, 
you made clear that you wrote that memo in a way that was 
unclassified. If you affirmatively made the decision to write a 
memo that was unclassified, was that because you felt at some 
point the facts of that meeting would have to come clean and 
come clear and actually be able to be cleared in a way that 
could be shared with the American people?
    Director Comey. Well, I remember thinking, this is a very 
disturbing development, really important to our work, I need to 
document it and preserve it in a way--and this committee gets 
this, but sometimes when things are classified, it tangles them 
up. It's hard----
    Vice Chairman Warner. Amen.
    Director Comey [continuing]. To share it within an 
investigative team. You have to be very careful about how you 
handle it, for good reason. So my thinking was, if I write it 
in such a way that I don't include anything that would trigger 
a classification, that'll make it easier for us to discuss 
within the FBI and the government, and to hold on to it in a 
way that makes it accessible to us.
    Vice Chairman Warner. Well, again, it's our hope, 
particularly since you're a pretty knowledgeable guy and you 
wrote this in a way that was unclassified, that this committee 
will get access to that unclassified document. I think it'll be 
very important to our investigation.
    Let me just ask this in closing: How many ongoing 
investigations at any time does the FBI have going on?
    Director Comey. Tens of thousands.
    Vice Chairman Warner. Tens of thousands. Did the President 
ever ask about any other ongoing investigation?
    Director Comey. No.
    Vice Chairman Warner. Did he ever ask about you trying to 
interfere on any other investigation?
    Director Comey. No.
    Vice Chairman Warner. I think again this speaks volumes. 
This doesn't even get to the questions around the phone calls 
about lifting the cloud. I know other members will get to that, 
but I really appreciate your testimony and appreciate your 
service to our Nation.
    Director Comey. Thank you, Senator Warner.
    You know, just I'm sitting here, going through my contacts 
with him. I had one conversation with the President that was 
classified, where he asked about an ongoing intelligence 
investigation. It was brief and entirely professional.
    Vice Chairman Warner. But he didn't ask you to take any 
specific action on that?
    Director Comey. No, no.
    Vice Chairman Warner. Unlike what he had done vis-a-vis Mr. 
Flynn and the overall Russia investigation?
    Director Comey. Correct.
    Vice Chairman Warner. Thank you, sir.
    Chairman Burr. Senator Risch.
    Senator Risch. Thank you very much.
    Mr. Comey, thank you for your service. America needs more 
like you, and we really appreciate it.
    Yesterday I got and everybody got the seven pages of your 
direct testimony that's now a part of the record here. And the 
first--I read it, then I read it again, and all I could think 
was, number one, how much I hated the class of legal writing 
when I was in law school. And you were the guy that probably 
got the A, after reading this. So I find it clear, I find it 
concise, and, having been a prosecutor for a number of years 
and handling hundreds, maybe thousands, of cases and read 
police reports, investigative reports, this is as good as it 
gets.
    And I really appreciate that, not only the conciseness and 
the clearness of it, but also the fact that you have things 
that were written down contemporaneously when they happened and 
you actually put them in quotes, so we know exactly what 
happened and we're not getting some rendition of it that in 
your mind.
    Director Comey. Thank you, Senator.
    Senator Risch. So you're to be complimented for that.
    Director Comey. I had great parents and great teachers who 
beat that into me.
    Senator Risch. That's obvious, sir.
    The Chairman walked you through a number of things that the 
American people need to know and want to know. Number one, 
obviously we all know about the active measures that the 
Russians have taken. I think a lot of people were surprised at 
this. Those of us that work in the intelligence community, it 
didn't come as a surprise. But now the American people know 
this, and it's good they know this because this is serious and 
it's a problem.
    I think, secondly, I gather from all this that you're 
willing to say now that while you were Director the President 
of the United States was not under investigation. Is that a 
fair statement?
    Director Comey. That's correct.
    Senator Risch. All right. So that's a fact that we can rely 
on.
    Director Comey. Yes, sir.
    Senator Risch. Okay.
    I remember you talked with us shortly after February 14th, 
when the New York Times wrote an article that suggested that 
the Trump campaign was colluding with the Russians. You 
remember reading that article when it first came out?
    Director Comey. I do. It was about allegedly extensive 
electronic surveillance----
    Senator Risch. Correct.
    Director Comey [continuing]. Of communications, yes.
    Senator Risch. And that upset you to the point where you 
actually went out and surveyed the intelligence community to 
see whether you were missing something in that. Is that 
correct?
    Director Comey. That's correct. I want to be careful in an 
open setting, but----
    Senator Risch. I'm not going to go any further than that 
with it, so thank you.
    Director Comey. Okay.
    Senator Risch. In addition to that, after that you sought 
out both Republican and Democrat Senators to tell them that, 
hey, I don't know where this is coming from, but this is not 
the case, this is not factual. Do you recall that?
    Director Comey. Yes.
    Senator Risch. Okay. So again, so the American people can 
understand this, that report by the New York Times was not 
true. Is that a fair statement?
    Director Comey. In the main, it was not true. And again, 
all of you know this and maybe the American people don't. The 
challenge--and I'm not picking on reporters--about writing 
stories about classified information is that people talking 
about it often don't really know what's going on, and those of 
us who actually know what's going on are not talking about it. 
And we don't call the press to say, hey, you got that thing 
wrong about this sensitive topic. We just have to leave it 
there.
    I mentioned to the Chairman the nonsense around what 
influenced me to make the July 5th statement. Nonsense, but I 
can't go explaining how it's nonsense.
    Senator Risch. Thank you. All right. So those three things 
we now know regarding the active measures, whether the 
President's under investigation, and the collusion between the 
Russians--the Trump campaign and the Russians.
    I want to drill right down, as my time is limited, to the 
most recent dust-up regarding allegations that the President of 
the United States obstructed justice. And, boy, you nailed this 
down on page 5, paragraph 3. You put this in quotes. Words 
matter. You wrote down the words so we can all have the words 
in front of us now. There's 28 words there that are in quotes, 
and it says, quote, ``I hope''--this is the President 
speaking--``I hope you can see your way clear to letting this 
go, to letting Flynn go. He is a good guy. I hope you can let 
this go.''
    Now those are his exact words, is that correct?
    Director Comey. Correct.
    Senator Risch. And you wrote them here and you put them in 
quotes?
    Director Comey. Correct.
    Senator Risch. Okay. Thank you for that. He did not direct 
you to let it go?
    Director Comey. Not in his words, no.
    Senator Risch. He did not order you to let it go?
    Director Comey. Again, those words are not an order.
    Senator Risch. No. He said, ``I hope.'' Now, like me, you 
probably did hundreds of cases, maybe thousands of cases, 
charging people with criminal offenses. And of course you have 
knowledge of the thousands of cases out there where people have 
been charged. Do you know of any case where a person has been 
charged for obstruction of justice or, for that matter, any 
other criminal offense, where they said or thought they hoped 
for an outcome?
    Director Comey. I don't know well enough to answer. And the 
reason I keep saying his words is I took it as a direction.
    Senator Risch. Right.
    Director Comey. I mean, this is the President of the United 
States with me alone, saying, ``I hope'' this. I took it as 
this is what he wants me to do. I didn't obey that, but that's 
the way I took it.
    Senator Risch. You may have taken it as a direction, but 
that's not what he said.
    Director Comey. Correct. That's why----
    Senator Risch. He said ``I hope.''
    Director Comey. Those are exact words, correct.
    Senator Risch. You don't know of anyone that's ever been 
charged for hoping something. Is that a fair statement?
    Director Comey. I don't as I sit here.
    Senator Risch. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    Mr. Comey, I just want you to know that I have great 
respect for you. Senator Cornyn and I sit on the Judiciary 
Committee, so we have occasion to have you before us. And I 
know that you're a man of strength and integrity, and I really 
regret the situation that we all find ourselves in. I just want 
to say that.
    Let me begin with one overarching question. Why do you 
believe you were fired?
    Director Comey. Guess I don't know for sure. I believe 
the--I take the President at his word, that I was fired because 
of the Russia investigation. Something about the way I was 
conducting it the President felt created pressure on him that 
he wanted to relieve. Again, I didn't know that at the time, 
but I watched his interview, I've read the press accounts of 
his conversations. So I take him at his word there.
    Now, look, I could be wrong. Maybe he's saying something 
that's not true. But I take him at his word, at least based on 
what I know now.
    Senator Feinstein. Talk for a moment about his request that 
you pledge loyalty and your response to that and what impact 
you believe that had.
    Director Comey. I don't know for sure, because I don't know 
the President well enough to read him well. I think it was--
because our relationship didn't get off to a great start, given 
the conversation I had to have on January 6th, this was not--
this didn't improve the relationship, because it was very, very 
awkward.
    He was asking for something and I was refusing to give it. 
But again, I don't know him well enough to know how he reacted 
to that exactly.
    Senator Feinstein. Do you believe the Russia investigation 
played a role?
    Director Comey. In why I was fired?
    Senator Feinstein. Yes.
    Director Comey. Yes, because I've seen the President say 
so.
    Senator Feinstein. Okay. Let's go to the Flynn issue. 
Senator Risch outlined ``I hope you could see your way to 
letting Flynn go. He's a good guy. I hope you can let this 
go.'' But you also said in your written remarks, and I quote, 
that you had ``understood the President to be requesting that 
we drop any investigation of Flynn in connection with false 
statements about his conversations with the Russian ambassador 
in December,'' end quote.
    Please go into that with more detail.
    Director Comey. Well, the context and the President's words 
are what led me to that conclusion. As I said in my statement, 
I could be wrong, but Flynn had been forced to resign the day 
before and the controversy around General Flynn at that point 
in time was centered on whether he had lied to the Vice 
President about the nature of his conversations with the 
Russians, whether he had been candid with others in the course 
of that.
    And so that happens on the day before. On the 14th, the 
President makes specific reference to that. And so that's why I 
understood him to be saying that what he wanted me to do was 
drop any investigation connected to Flynn's account of his 
conversations with the Russians.
    Senator Feinstein. Now, here's the question: You're big. 
You're strong. I know the Oval Office and I know what happens 
to people when they walk in. There is a certain amount of 
intimidation. But why didn't you stop and say, ``Mr. President, 
this is wrong. I cannot discuss this with you''?
    Director Comey. It's a great question. Maybe if I were 
stronger I would have. I was so stunned by the conversation 
that I just took it in. And the only thing I could think to 
say, because I was playing in my mind, because I could remember 
every word he said--I was playing in my mind, what should my 
response be? And that's why I very carefully chose the words.
    And, look, I've seen the tweet about tapes. Lordy, I hope 
there are tapes. I remember saying, ``I agree he's a good 
guy,'' as a way of saying, ``I'm not agreeing with what you 
just asked me to do.''
    Again, maybe other people would be stronger in that 
circumstance but that was--that's how I conducted myself. I 
hope I'll never have another opportunity. Maybe if I did it 
again I would do it better.
    Senator Feinstein. You described two phone calls that you 
received from President Trump, one on March 30 and one on April 
11, where he, quote, ``described the Russia investigation as a 
cloud that was impairing his ability,'' end quote, as President 
and asked you, quote, ``to lift the cloud,'' end quote.
    How did you interpret that? And what did you believe he 
wanted you to do?
    Director Comey. I interpreted that as he was frustrated 
that the Russia investigation was taking up so much time and 
energy, I think he meant of the Executive Branch, but in the 
public square in general, and it was making it difficult for 
him to focus on other priorities of his. But what he asked me 
was actually narrower than that.
    So I think what he meant by the cloud, and again I could be 
wrong, but what I think he meant by the cloud was the entire 
investigation is taking up oxygen and making it hard for me to 
focus on the things I want to focus on.
    The ask was to get it out that I, the President, am not 
personally under investigation.
    Senator Feinstein. After April 11th, did he ask you more, 
ever, about the Russia investigation? Did he ask you any 
questions?
    Director Comey. We never spoke again after April 11th.
    Senator Feinstein. You told the President, ``I would see 
what we could do.'' What did you mean?
    Director Comey. Well, it was kind of a slightly cowardly 
way of trying to avoid telling him, we're not going to do that; 
that I would see what we could do. It was a way of kind of 
getting off the phone, frankly. And then I turned and handed it 
to the acting Deputy Attorney General, Mr. Boente.
    Senator Feinstein. So I wanted to go into that. Who did you 
talk with about that, lifting the cloud, stopping the 
investigation, back at the FBI, and what was their response?
    Director Comey. Well, the FBI--during one of the two 
conversations--I'm not remembering exactly; I think the first--
my chief of staff was actually sitting in front of me and heard 
my end of the conversation because the President's call was a 
surprise. And I discussed the lifting the cloud and the request 
with the senior leadership team, who typically and I think in 
all these circumstances, was the deputy director, my chief of 
staff, the general counsel, the deputy director's chief 
counsel, and I think in a number of circumstances the number 
three in the FBI, and a few of the conversations included the 
head of the National Security Branch, so that group of us that 
lead the FBI when it comes to national security.
    Senator Feinstein. Okay. You have the President of the 
United States asking you to stop an investigation that's an 
important investigation. What was the response of your 
colleagues?
    Director Comey. I think they were as shocked and troubled 
by it as I was. Some said things that led me to believe that. I 
don't remember exactly, but the reaction was similar to mine. 
They're all experienced people who had never experienced such a 
thing. So they were very concerned.
    And then the conversation turned to about, so what should 
we do with this information? And that was a struggle for us, 
because we are the leaders of the FBI. So it's been reported to 
us in that I heard it and now I've shared it with the leaders 
of the FBI. Our conversation was, should we share this with any 
senior officials at the Justice Department?
    Our absolute primary concern was, we can't infect the 
investigative team. We don't want the agents and analysts 
working on this to know the President of the United States has 
asked--and when it comes from the President, I took it as a 
direction--to get rid of this investigation, because we're not 
going to follow that, that request.
    And so we decided we gotta keep it away from our troops. 
But is there anybody else we ought to tell at the Justice 
Department? And, as I laid out in my statement, we considered 
whether to tell the Attorney General, decided that didn't make 
sense because we believed, rightly, that he was shortly going 
to recuse. There were no other Senate-confirmed leaders in the 
Justice Department at that point. The Deputy Attorney General 
was Mr. Boente, who was acting and going to be shortly in that 
seat.
    And we decided the best move would be to hold it, keep it 
in a box, document it, as we'd already done, and then this 
investigation's going to go on, figure out what to do with it 
down the road. Is there a way to corroborate this? Our view at 
the time was, look, it's your word against the President's. 
There's no way to corroborate this. That view of that changed 
when the prospect of tapes was raised, but that's how we 
thought about it then.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Rubio.
    Senator Rubio. Thank you.
    Director Comey, the meeting in the Oval Office where he 
made the request about Mike Flynn, was that the only time he 
asked you to hopefully let it go?
    Director Comey. Yes.
    Senator Rubio. And in that meeting, as you understood it, 
that was--he was asking not about the general Russia 
investigation; he was asking very specifically about the 
jeopardy that Flynn was in himself?
    Director Comey. That's how I understood it, yes, sir.
    Senator Rubio. And as you perceived it, while it was a 
request that he hoped you did away with it, you perceived it as 
an order, given his position, the setting and the like, and 
some of the circumstances?
    Director Comey. Yes.
    Senator Rubio. At the time, did you say anything to the 
President about that is not an appropriate request, or did you 
tell the White House counsel, that is not an appropriate 
request, someone needs to go tell the President that he can't 
do these things?
    Director Comey. I didn't, no.
    Senator Rubio. Okay. Why?
    Director Comey. I don't know. I think, as I said earlier, I 
think the circumstances were such that it was--I was a bit 
stunned and didn't have the presence of mind. And I don't 
know--you know, I don't want to make you sound like I'm Captain 
Courageous. I don't know whether, even if I had the presence of 
mind, I would have said to the President, ``Sir, that's 
wrong.'' I don't know whether I would have.
    Senator Rubio. Okay.
    Director Comey. But in the moment, it didn't come to my 
mind. What came to my mind is, be careful what you say. And so 
I said, ``I agree Flynn is a good guy.''
    Senator Rubio. So, on the cloud--we keep talking about this 
cloud--you perceived the cloud to be the Russian investigation 
in general, correct?
    Director Comey. Yes, sir.
    Senator Rubio. But the specific ask was that you would tell 
the American people what you had already told him, what you had 
already told the leaders of Congress, both Democrats and 
Republicans: that he was not personally under investigation.
    Director Comey. Yes, sir, that's how I----
    Senator Rubio. In fact, he was asking you to do what you 
have done here today.
    Director Comey. Correct. Yes, sir.
    Senator Rubio. Okay. And again, at that setting did you say 
to the President that it would be inappropriate for you to do 
so and then talk to the White House counsel or anybody so 
hopefully they would talk to him and tell him that he couldn't 
do this?
    Director Comey. The first time I said, ``I'll see what we 
can do.'' Second time, I explained how it should work, that the 
White House counsel should contact the Deputy Attorney General.
    Senator Rubio. You told him that?
    Director Comey. The President said: Okay, I think that's 
what I'll do.
    Senator Rubio. And just to be clear, for you to make a 
public statement that he was not under investigation would not 
have been illegal, but you felt it made no sense because it 
could potentially create a duty to correct if circumstances 
changed?
    Director Comey. Yes, sir. We wrestled with it before my 
testimony where I confirmed that there was an investigation and 
there were two primary concerns. One was it creates a duty to 
correct, which I've lived before and you want to be very 
careful about doing that. And second, it's a slippery slope, 
because if we say the President and the Vice President aren't 
under investigation, what's the principled basis for stopping?
    Senator Rubio. Okay.
    Director Comey. And so the leadership at Justice, Acting 
Attorney General Boente, said, ``You're not going to do that.''
    Senator Rubio. Now, on March 30th during the phone call 
about General Flynn you said he abruptly shifted and brought up 
something that you call, quote, unquote, ``the McCabe thing.'' 
Specifically, the McCabe thing as you understood it was that 
McCabe's wife had received campaign money from what I assume 
means Terry McAuliffe?
    Director Comey. Yes, sir.
    Senator Rubio. Who was very close to the Clintons. And so 
why did you--had the President at any point in time expressed 
to you concern, opposition, potential opposition to McCabe? ``I 
don't like this guy because he got money from someone this 
close to Clinton?''
    Director Comey. He had asked me during previous 
conversations about Andy McCabe and said, in essence, ``How's 
he going to be with me as President? I was pretty rough on them 
on the campaign trail.'' And----
    Senator Rubio. He was rough on McCabe?
    Director Comey. He was rough--by his own account, he said 
he was rough on McCabe and Mrs. McCabe on the campaign trail. 
How's he going to be? And I assured the President, Andy is a 
total pro, no issue at all; you got to know the people of the 
FBI, they are not----
    Senator Rubio. So when the President turns to you and says, 
``Remember, I never brought up the McCabe thing because you 
said he was a good guy,'' did you perceive that to be a 
statement that I took care of you, I didn't do something 
because you told me he was a good guy, so now, you know, I'm 
asking you potentially for something in return? Is that how you 
perceived it?
    Director Comey. I wasn't sure what to make of it, honestly. 
That's possible, but it was so out of context that I didn't 
have a clear view of what it was.
    Senator Rubio. Now, on a number of occasions here you bring 
up--let's talk now about the general Russia investigation, 
okay? On page 6 of your testimony, you say--the first thing you 
say is, he asked what we could do to, quote/unquote, ``lift the 
cloud,'' the general Russia investigation.
    And you responded that we were investigating the matter as 
quickly as we could and that there would be great benefit, if 
we didn't find anything, to having done the work well. And he 
agreed. He reemphasized the problems it was causing him, but he 
agreed.
    So in essence the President agreed with your statement that 
it would be great if we could have an investigation, all the 
facts came out, and we found nothing. So he agreed that that 
would be ideal, but this cloud is still messing up my ability 
to do the rest of my agenda. Is that an accurate assessment?
    Director Comey. Yes, sir. He actually went farther than 
that. He said, ``And if some of my satellites did something 
wrong, it'd be good to find that out.''
    Senator Rubio. Well, that's the second part, and that is 
the satellites. He said, ``If one of my satellites''--I imagine 
by that he meant some of the other people surrounding his 
campaign--``did something wrong, it would be great to know 
that, as well''?
    Director Comey. Yes, sir. That's what he said.
    Senator Rubio. So are those the other--are those the only 
two instances in which that sort of back-and-forth happened, 
where the President was basically saying, and I'm paraphrasing 
here, it's okay, do the Russia investigation, I hope it all 
comes out, I have nothing to do with anything Russia, it'd be 
great if it all came out, if people around me were doing things 
that were wrong?
    Director Comey. Yes. As I recorded it accurately there, 
that was the sentiment he was expressing. Yes, sir.
    Senator Rubio. So what it basically comes down to is the 
President has asked three things of you. He asked for your 
loyalty, and you said you would be loyally honest.
    Director Comey. Honestly loyal.
    Senator Rubio. Honestly loyal. He asked you on one occasion 
to let the Mike Flynn thing go because he was a good guy. 
You're aware that he said the exact same thing in the press the 
next day, ``He's a good guy,'' ``He's been treated unfairly,'' 
et cetera, et cetera. So I imagine your FBI agents read that.
    Director Comey. I'm sure they did.
    Senator Rubio. The President's wishes were known to them 
certainly by the next day, when he had a press conference with 
the Prime Minister.
    But going back, the three requests were: number one, be 
loyal; number two, let the Mike Flynn thing go, he's a good 
guy, he's been treated unfairly; and, number three, can you 
please tell the American people what these leaders in Congress 
already know, what you already know, what you've told me three 
times, that I'm not under, personally under investigation?
    Director Comey. Those are the three things he asked. Yes, 
sir.
    Senator Rubio. You know, this investigation is full of 
leaks, left and right. I mean, we've learned more from the 
newspapers sometimes than we do from our open hearings, for 
sure. Do you ever wonder why, of all the things in this 
investigation, the only thing that's never been leaked is the 
fact that the President was not personally under investigation, 
despite the fact that both Democrats and Republicans in the 
leadership of Congress knew that and have known that for weeks?
    Director Comey. I don't know. I find matters that are 
briefed to the Gang of Eight are pretty tightly held in my 
experience.
    Senator Rubio. Finally, who are those senior leaders at the 
FBI that you shared these conversations with?
    Director Comey. As I said in response to Senator 
Feinstein's question, deputy director, my chief of staff, 
general counsel, the deputy director's chief counsel, and then 
more often than not the number three person at the FBI, who is 
the associate deputy Director, and then quite often the head of 
the National Security Branch.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Comey, welcome. You and I have had significant policy 
differences over the years, particularly protecting Americans' 
access to secure encryption. But I believe the timing of your 
firing stinks. And yesterday you put on the record testimony 
that demonstrates why the odor of presidential abuse of power 
is so strong.
    Now, to my questions. In talking to Senator Warner about 
this dinner that you had with President, I believe January 
27th, all in one dinner the President raised your job 
prospects, he asked for your loyalty, and denied allegations 
against him. All took place over one supper.
    Now, you told Senator Warner that the President was looking 
to, quote, ``get something.'' Looking back, did that dinner 
suggest that your job might be contingent on how you handled 
the investigation?
    Director Comey. I don't know that I'd go that far. I got 
the sense my job would be contingent upon how he felt I--excuse 
me--how he felt I conducted myself and whether I demonstrated 
loyalty. But I don't know whether I'd go so far as to connect 
it to the investigation.
    Senator Wyden. You said the President was trying to create 
some sort of patronage relationship. In a patronage 
relationship isn't the underling expected to behave in a manner 
consistent with the wishes of the boss?
    Director Comey. Yes.
    Senator Wyden. Okay.
    Director Comey. Or at least consider how what you're doing 
will affect the boss as a significant consideration.
    Senator Wyden. Let me turn to the Attorney General. In your 
statement, you said that you and the FBI leadership team 
decided not to discuss the President's actions with Attorney 
General Sessions, even though he had not recused himself. What 
was it about the Attorney General's own interactions with the 
Russians or his behavior with regard to the investigation that 
would have led the entire leadership of the FBI to make this 
decision?
    Director Comey. Our judgment, as I recall, was that he was 
very close to and inevitably going to recuse himself for a 
variety of reasons. We also were aware of facts that I can't 
discuss in an open setting that would make his continued 
engagement in a Russia-related investigation problematic.
    And so we were convinced--and, in fact, I think we had 
already heard that the career people were recommending that he 
recuse himself--that he was not going to be in contact with 
Russia-related matters much longer, and that turned out to be 
the case.
    Senator Wyden. How would you characterize Attorney General 
Sessions' adherence to his recusal, in particular with regard 
to his involvement in your firing, which the President has 
acknowledged was because of the Russian investigation?
    Director Comey. That's a question I can't answer. I think 
it's a reasonable question. If, as the President said, I was 
fired because of the Russia investigation, why was the Attorney 
General involved in that chain? I don't know, and so I don't 
have an answer for the question.
    Senator Wyden. Your testimony was that the President's 
request about Flynn could infect the investigation. Had the 
President got what he wanted and what he asked of you, what 
would have been the effect on the investigation?
    Director Comey. Well, we would have closed any 
investigation of General Flynn in connection with his 
statements and encounter--statements about and encounters with 
Russians in the late part of December.
    Senator Wyden. Well----
    Director Comey. So we would have dropped an open criminal 
investigation.
    Senator Wyden. So, in effect, when you talk about infecting 
the enterprise, you would have dropped something major that 
would have spoken to the overall ability of the American people 
to get the facts?
    Director Comey. Correct. And, as good as our people are, 
our judgment was we don't want them hearing that the President 
of the United States wants this to go away, because it might 
have an effect of their ability to be fair and impartial and 
aggressive.
    Senator Wyden. Now, the Acting Attorney General Yates found 
out that Michael Flynn could be blackmailed by the Russians and 
she went immediately to warn the White House. Flynn is gone, 
but other individuals with contacts with the Russians are still 
in extremely important positions of power. Should the American 
people have the same sense of urgency now, with respect to 
them?
    Director Comey. I think all I can say, Senator, is the 
special counsel's investigation is very important. 
Understanding what efforts there were or are by the Russian 
government to influence our government is a critical part of 
the FBI's mission, so--and you've got the right person in Bob 
Mueller to lead it. So it's a very important piece of work.
    Senator Wyden. Vice President Pence was the head of the 
transition. To your knowledge, was he aware of the concerns 
about Michael Flynn prior to or during General Flynn's tenure 
as national security adviser?
    Director Comey. I don't--you're asking including up to the 
time when Flynn was forced to resign? My understanding is that 
he was, and I'm trying to remember where I get that 
understanding from. I think from Acting Attorney General Yates.
    Senator Wyden. So former Acting Attorney General Yates 
testified that concerns about General Flynn were discussed with 
the intelligence community. Would that have included anyone at 
the CIA or Dan Coats's office, the DNI?
    Director Comey. I would assume yes.
    Senator Wyden. Michael Flynn resigned four days after 
Attorney General Sessions was sworn in. Do you know if the 
Attorney General was aware of the concerns about Michael Flynn 
during that period?
    Director Comey. I don't as I sit here. I don't recall that 
he was. I could be wrong, but I don't remember that he was.
    Senator Wyden. And finally, let's see if you can give us 
some sense of who recommended your firing. Besides the letters 
from the Attorney General, the Deputy Attorney General, do you 
have any information on who may have recommended or have been 
involved in your firing?
    Director Comey. I don't. I don't.
    Senator Wyden. Okay.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Comey, let me begin by thanking you for your voluntary 
compliance with our request to appear before this committee and 
assist us in this very important investigation.
    I want first to ask you about your conversations with the 
President, the three conversations in which you told him that 
he was not under investigation. The first was during your 
January 6th meeting, according to your testimony, in which it 
appears that you actually volunteered that assurance. Is that 
correct?
    Director Comey. That's correct.
    Senator Collins. Did you limit that statement to 
counterintelligence investigations or were you talking about 
any kind of FBI investigation?
    Director Comey. I didn't use the term 
``counterintelligence.'' I was speaking to him and briefing him 
about some salacious and unverified material. It was in the 
context of that that he had a strong and defensive reaction 
about that not being true. And my reading of it was it was 
important for me to assure him we were not personally 
investigating him. And so the context then was actually 
narrower, focused on what I had just talked to him about.
    It was very important because it was, first, true. And 
second, I was worried very much about being in kind of a--kind 
of a J. Edgar Hoover-type situation. I didn't want him thinking 
that I was briefing him on this to sort of hang it over him in 
some way. I was briefing him on it because we had been told by 
the media it was about to launch. We didn't want to be keeping 
that from him. And he needed to know this was being said.
    But I was very keen not to leave him with an impression 
that the Bureau was trying to do something to him. And so 
that's the context in which I said, ``Sir, we're not personally 
investigating you.''
    Senator Collins. And then, that's why you volunteered the 
information----
    Director Comey. Yes, ma'am.
    Senator Collins [continuing]. Correct?
    Then, on the January 27th dinner you told the President 
that he should be careful about asking you to investigate 
because, quote, ``You might create a narrative that we are 
investigating him personally, which we weren't.'' Again, were 
you limiting that statement to counterintelligence 
investigations or more broadly, such as a criminal 
investigation?
    Director Comey. The context was very similar. I didn't 
modify the word ``investigation.'' It was again he was reacting 
strongly again to that unverified material, saying, ``I'm 
tempted to order you to investigate it.'' And in the context of 
that I said, ``Sir, you want to be careful about that, because 
it might create a narrative we're investigating you 
personally.''
    Senator Collins. And then there was the March 30th phone 
call with the President, in which you reminded him that 
Congressional leaders have been briefed that we were not 
personally, the FBI was not personally investigating President 
Trump. And again, was that statement to Congressional leaders 
and to the President limited to counterintelligence 
investigations? Or was it a broader statement?
    I'm trying to understand whether there was any kind of 
investigation of the President under way.
    Director Comey. No. I'm sorry, and if I misunderstood I 
apologize. We briefed the Congressional leadership about what 
Americans we had opened counterintelligence investigation cases 
on and we specifically said the President is not one of those 
Americans. But there was no other investigation of the 
President that we were not mentioning at that time. The context 
was counterintelligence, but I wasn't trying to hide some 
criminal investigation of the President.
    Senator Collins. And was the President under investigation 
at the time of your dismissal on May 9th?
    Director Comey. No.
    Senator Collins. I'd like to now turn to the conversations 
with the President about Michael Flynn, which have been 
discussed at great length. And first let me make very clear 
that the President never should have cleared the room, and he 
never should have asked you, as you reported, to let it go, to 
let the investigation go.
    But I remain puzzled by your response. Your response was, 
``I agree that Michael Flynn is a good guy.'' You could have 
said, ``Mr. President, this meeting is inappropriate. This 
response could compromise the investigation. You should not be 
making such a request. It's fundamental to the operation of our 
government that the FBI be insulated from this kind of 
political pressure.''
    And you've talked a bit today about that you were stunned 
by the President making the request. But my question to you is, 
later on, upon reflection, did you go to anyone at the 
Department of Justice and ask them to call the White House 
counsel's office and explain that the President had to have a 
far better understanding and appreciation of his role vis-a-vis 
the FBI?
    Director Comey. In general, I did. I spoke to the Attorney 
General and I spoke to the new Deputy Attorney General, Mr. 
Rosenstein, when he took office and explained my serious 
concern about the way in which the President is interacting, 
especially with the FBI. And I specifically, as I said my 
testimony, asked the--told the Attorney General, it can't 
happen that you get kicked out of the room and the President 
talks to me.
    Look, in the room--but why didn't we raise the specific? It 
was of investigative interest to us to try and figure out, so 
what just happened with the President's request? So I would not 
have wanted to alert the White House that it had happened until 
we figured out, what are we going to do with this 
investigatively?
    Senator Collins. Your testimony was that you went to 
Attorney General Sessions and said, ``Don't ever leave me alone 
with him again.'' Are you saying that you also told him that he 
had made a request that you let it go with regard to part of 
the investigation of Michael Flynn?
    Director Comey. No, I specifically did not. I did not.
    Senator Collins. You mentioned that from your very first 
meeting with the President you decided to write a memo 
memorializing the conversation. What was it about that very 
first meeting that made you write a memo, when you had not done 
that with two previous Presidents?
    Director Comey. As I said, a combination of things. A gut 
feeling is an important overlay on it, but the circumstances, 
that I was alone, the subject matter, and the nature of the 
person that I was interacting with and my read of that person. 
And really, just a gut feel laying on top of all of that, that 
this--it's going to be important to protect this organization 
that I make records of this.
    Senator Collins. And finally, did you show copies of your 
memos to anyone outside of the Department of Justice?
    Director Comey. Yes.
    Senator Collins. And to whom did you show copies?
    Director Comey. I asked--the President tweeted on Friday 
after I got fired that I better hope there's not tapes. I woke 
up in the middle of the night on Monday night, because it 
didn't dawn on me originally that there might be corroboration 
for our conversation, there might be a tape. And my judgment 
was I needed to get that out into the public square. And so I 
asked a friend of mine to share the content of the memo with a 
reporter. Didn't do it myself, for a variety of reasons. But I 
asked him to, because I thought that might prompt the 
appointment of a special counsel. And so I asked a close friend 
of mine to do it.
    Senator Collins. And was that Mr. Wittes?
    Director Comey. No, no.
    Senator Collins. Who was that?
    Director Comey. A good friend of mine who's a professor at 
Columbia Law School.
    Senator Collins. Thank you.
    Chairman Burr. Senator Heinrich.
    Senator Heinrich. Mr. Comey, prior to January 27th of this 
year, have you ever had a one-on-one meeting or a private 
dinner with a President of the United States?
    Director Comey. No. I met--dinner, no. I had two one-on-
ones with President Obama that I laid out in my testimony: 
once, to talk about law enforcement issues, law enforcement and 
race, which was an important topic throughout for me and for 
the President; and then once, very briefly, for him to say 
goodbye.
    Senator Heinrich. Were those brief interactions?
    Director Comey. No. The one about law enforcement and race 
in policing, we spoke for probably over an hour, just the two 
of us.
    Senator Heinrich. How unusual is it to have a one-on-one 
dinner with the President? Did that strike you as odd?
    Director Comey. Yes, so much so that I assumed there would 
be others, that he couldn't possibly be having dinner with me 
alone.
    Senator Heinrich. Do you have an impression that, if you 
had found--if you had behaved differently in that dinner--and I 
am quite pleased that you did not--but if you had found a way 
to express some sort of expression of loyalty or given some 
suggestion that the Flynn criminal investigation might be 
pursued less vigorously, do you think you would've still been 
fired?
    Director Comey. I don't know. It's impossible to say, 
looking back. I don't know.
    Senator Heinrich. But you felt like those two things were 
directly relevant to the kind of relationship that the 
President was seeking to establish with you?
    Director Comey. Sure, yes.
    Senator Heinrich. The President has repeatedly talked about 
the Russian investigation into the U.S.--or the Russian--
Russia's involvement in the U.S. election cycle as a hoax and 
as fake news. Can you talk a little bit about what you saw as 
FBI Director, and obviously only the parts that you can share 
in this setting, that demonstrate how serious this action 
actually was, and why there was an investigation in the first 
place?
    Director Comey. Yes, sir.
    There should be no fuzz on this whatsoever. The Russians 
interfered in our election during the 2016 cycle. They did it 
with purpose. They did it with sophistication. They did it with 
overwhelming technical efforts. And it was an active measures 
campaign driven from the top of that government. There is no 
fuzz on that.
    It is a high-confidence judgment of the entire intelligence 
community, and the members of this committee have seen the 
intelligence. It's not a close call. That happened. That's 
about as un-fake as you can possibly get, and is very, very 
serious, which is why it's so refreshing to see a bipartisan 
focus on that, because this is about America, not about any 
particular party.
    Senator Heinrich. So that was a hostile act by the Russian 
government against this country?
    Director Comey. Yes, sir.
    Senator Heinrich. Did the President in any of those 
interactions that you've shared with us today ask you what you 
should be doing or what our government should be doing or the 
intelligence community to protect America against Russian 
interference in our election system?
    Director Comey. I don't recall a conversation like that.
    Senator Heinrich. Never?
    Director Comey. No.
    Senator Heinrich. Do you find it odd----
    Director Comey. Not with President Trump.
    Senator Heinrich. Right.
    Director Comey. I attended a fair number of meetings on 
that with President Obama.
    Senator Heinrich. Do you find it odd that the President 
seemed unconcerned by Russia's actions in our election?
    Director Comey. I can't answer that because I don't know 
what other conversations he had with other advisers or other 
intelligence community leaders. So I just don't know sitting 
here.
    Senator Heinrich. Did you have any interactions with the 
President that suggested he was taking that hostile action 
seriously?
    Director Comey. I don't remember any interactions with the 
President, other than the initial briefing on January the 6th. 
I don't remember--could be wrong, but I don't remember any 
conversations with him at all about that.
    Senator Heinrich. As you're very aware, it was only the two 
of you in the room for that dinner. You've told us the 
President asked you to back off the Flynn investigation. The 
President told a reporter----
    Director Comey. Not in that dinner.
    Senator Heinrich. Fair enough--told a reporter he never did 
that. You've testified that the President asked for your 
loyalty in that dinner. The White House denies that. A lot of 
this comes down to who should we believe? Do you want to say 
anything as to why we should believe you?
    Director Comey. My mother raised me not to say things like 
this about myself, so not I'm going to. I think people should 
look at the whole body of my testimony, because, as I used to 
say to juries, and when I talked about a witness, you can't 
cherry-pick it. You can't say, ``I like these things he said, 
but on this, he's a dirty, rotten liar.'' You've got to take it 
all together. And I've tried to be open and fair and 
transparent and accurate.
    A really significant fact to me is, so why did he kick 
everybody out of the Oval Office? Why would you kick the 
Attorney General, the Vice President, the chief of staff out, 
to talk to me, if it was about something else? And so that to 
me as an investigator is a very significant fact.
    Senator Heinrich. And as we look at testimony or 
communication from both of you, we should probably be looking 
for consistency.
    Director Comey. Well, in looking at any witness you look at 
consistency, track record, demeanor, record over time, that 
sort of thing.
    Senator Heinrich. Thank you.
    So there are reports that the incoming Trump 
administration, either during the transition and/or after the 
inauguration, attempted to set up a sort of back-door 
communication channel with the Russian government using their 
infrastructure, their devices or facilities. What would be the 
risks, particularly for a transition, someone not actually in 
the office of the President yet, to setting up unauthorized 
channels with a hostile foreign government, especially if they 
were to evade our own American intelligence services?
    Director Comey. I'm not going to comment on whether that 
happened in an open setting. But the risk is--the primary risk 
is obvious: you spare the Russians the cost and effort of 
having to break into our communications channels by using 
theirs. And so you make it a whole lot easier for them to 
capture all of your conversations and then to use those to the 
benefit of Russia against the United States.
    Senator Heinrich. The memos that you wrote, did you write 
all nine of them in a way that was designed to prevent them 
from needing classification?
    Director Comey. No. And on a few of the occasions I wrote, 
I sent e-mails to my chief of staff or others on some of the 
brief phone conversations that I recall. The first one was a 
classified briefing. Although it wasn't in a SCIF, it was in a 
conference room at Trump Tower. It was a classified briefing 
and so I wrote that on a classified device. The one I started 
typing in the car, that was a classified laptop that I started 
working on.
    Senator Heinrich. Any reason in a classified environment, 
in a SCIF, that this committee would--it would not be 
appropriate to see those communications,--at least from your 
perspective as the author?
    Director Comey. No.
    Senator Heinrich. Thank you, Mr. Chairman.
    Chairman Burr. Senator Blunt.
    Senator Blunt. Thank you, Mr. Chairman.
    Mr. Comey, when you were terminated at the FBI, I said, and 
still continue to feel, that you have provided years of great 
service to the country. I also said that I'd had significant 
questions over the last year about some of the decisions you 
made. If the President hadn't terminated your service, would 
you still be in your opinion the Director of the FBI today?
    Director Comey. Yes, sir.
    Senator Blunt. So you took as a direction from the 
President something that you thought was serious and 
troublesome, but continued to show up for work the next day?
    Director Comey. Yes, sir.
    Senator Blunt. And, six weeks later we're still telling the 
President on March the 30th that he was not personally the 
target of any investigation?
    Director Comey. Correct. On March the 30th, and I think 
again on--I think on April 11th as well, I told him we're not 
investigating him personally. That was true.
    Senator Blunt. Well, the point to me, the concern to me 
there, is that all these things are going on. You now in 
retrospect--or at least you now to this committee--that these 
were--you had serious concerns about what the President had, 
you believed, directed you to do, and had taken no action, 
hadn't even reported up the chain of command, assuming you 
believe there is an ``up the chain of command,'' that these 
things had happened.
    Do you have a sense of that, looking back, that that was a 
mistake?
    Director Comey. No. In fact, I think no action was the most 
important thing I could do to make sure there was no 
interference with the investigation.
    Senator Blunt. And on the Flynn issue specifically, I 
believe you said earlier that you believed the President was 
suggesting you drop any investigation of Flynn's account of his 
conversation with the Russian ambassador, which was essentially 
misleading the Vice President and others?
    Director Comey. Correct, and--and I'm not going into the 
details, but whether there were false statements made to 
government investigators as well.
    Senator Blunt. Any suggestion that General Flynn had 
violated the Logan Act I always find pretty incredible. The 
Logan Act's been on the books for over 200 years. Nobody's ever 
been prosecuted for violating the Logan Act. My sense would be 
that the discussion not the problem; misleading investigators 
or the Vice President might have been.
    Director Comey. That's fair. Yes, sir.
    Senator Blunt. Had you previously on February the 14th 
discussed with the President in the previous meeting anything 
your investigators had learned or their impressions from 
talking to Flynn?
    Director Comey. No, sir.
    Senator Blunt. So he said, ``He's a good guy.'' You said, 
``He's a good guy.'' And that was--no further action taken on 
that?
    Director Comey. Well, he said more than that. But there was 
no--the action was I wrote it up, briefed our senior team, 
tried to figure out what to do with it, and just made a 
decision, we're going to hold this and then see what we make of 
it down the road. Yes, sir.
    Senator Blunt. Was it your view that not briefing up meant 
you really had no responsibility to report that to the Justice 
Department in some way?
    Director Comey. I think at some point--and I don't know 
what Director Mueller is going to do with it, but at some point 
I was sure we were going to brief it to the team in charge of 
the case. But our judgment was in the short term it doesn't 
make sense to--no fuzz on the fact that I reported to the 
Attorney General. That's why I stressed he shouldn't be kicked 
out of the room. But it didn't make sense to report to him now.
    Senator Blunt. You know, you said to the Attorney General, 
said, ``I don't want to be in the room with him alone again,'' 
but you continued to talk to him on the phone. What is the 
difference in being in the room alone with him and talking to 
him on the phone alone?
    Director Comey. Yes, I think that what I stressed to the 
Attorney General was a little broader than just the room. I 
said ``You, I report to you. It's very important you be between 
me and the White House, between''----
    Senator Blunt. After that discussion with the Attorney 
General, did you take phone calls from the President?
    Director Comey. Yes, sir.
    Senator Blunt. So why did you just say you need to talk 
to--why didn't you say, ``I'm not taking that call; you need to 
talk to the Attorney General''?
    Director Comey. Well, I did on the April 11th call, and I 
reported the calls, the March 30th call and the April 11th 
call, to my superior, who was the acting Deputy Attorney 
General.
    Senator Blunt. I don't want to run out of time here. Let me 
make one other point. In reading your testimony, January the 
3rd, January the 27th, and March the 30th, it appears to me 
that on all three of those occasions you, unsolicited by the 
President, made the point to him that he was not a target of 
the--of an investigation.
    Director Comey. Correct. Yes, sir.
    Senator Blunt. One, I thought the March 30th very 
interesting. You said, well, even though you don't want--you 
may not want us--that was the 27th, where he said, ``Why don't 
you look into that dossier thing more?'' You said, ``Well, you 
may not want that, because then we couldn't tell you--couldn't 
say with--we couldn't answer the question about you being a 
target of the investigation.''
    But you didn't seem to be answering that question anyhow. 
As Senator Rubio pointed out, the one unanswered, unleaked 
question seems to have been that, in this whole period of time.
    But you said something earlier I don't want to fail to 
follow up on. You said, after you were dismissed, you gave 
information to a friend so that friend could get that 
information into the public media.
    Director Comey. Correct.
    Senator Blunt. What kind of information was that? Wasn't 
that--what kind of information did you give to a friend?
    Director Comey. That the President--the Flynn conversation, 
that the President had asked me to let the Flynn--I'm 
forgetting my exact own words, but the conversation in the Oval 
Office.
    Senator Blunt. So you didn't consider your memo or your 
sense of that conversation to be a government document? You 
consider it to be somehow your own personal document that you 
could share with the media as you wanted to?
    Director Comey. Correct----
    Senator Blunt. Through a friend?
    Director Comey. I understood this to be my recollection 
recorded of my conversation with the President. As a private 
citizen, I felt free to share that. I thought it very important 
to get it out.
    Senator Blunt. So were all of your memos that you've 
recorded on classified or other documents memos that might be 
yours as a private citizen?
    Director Comey. I'm sorry, I'm not following the question.
    Senator Blunt. Well, I think you said you'd used classified 
a classified----
    Director Comey. Oh, yes, not the classified documents. 
Unclassified, I don't have any of them anymore. I gave them to 
the special counsel. But, yeah, my view was that the content of 
those unclassified--the memorialization of those conversations 
was my recollection recorded.
    Senator Blunt. So why didn't you give those to somebody 
yourself, rather than give them through a third party?
    Director Comey. Because I was worried the media was camping 
at the end of my driveway at that point, and I was actually 
going out of town with my wife to hide, and I worried it would 
be like feeding seagulls at the beach if it was I who gave it 
to the media. So I asked my friend, ``Make sure this gets 
out.''
    Senator Blunt. It does seem to me that what you do there is 
create a source close to the former Director of the FBI, as 
opposed to just taking responsibility yourself for saying, 
``Here are these records.''
    And, like everybody else, I have other things I'd like to 
get into, but I'm out of time.
    Director Comey. Okay.
    Chairman Burr. Senator King.
    Senator King. Thank you.
    First I'd like to acknowledge Senator Blumenthal and 
earlier Senator Nelson. I think the one principal thing you'll 
learn today, Senator, is that the chairs there are less 
comfortable than the chairs here. But I welcome you to the 
hearing.
    Mr. Comey, a broad question. Was the Russian activity in 
the 2016 election a one-off proposition? Or is this part of a 
long-term strategy? Will they be back?
    Director Comey. Oh, it's a long-term practice of theirs. It 
stepped up a notch in a significant way in 2016. They'll be 
back.
    Senator King. I think that's very important for the 
American people to understand, that this is very much a 
forward-looking investigation in terms of how do we understand 
what they did and how do we prevent it. Would you agree that 
that's a big part of our role here?
    Director Comey. Yes, sir, and it's not a Republican thing 
or Democratic thing. It really is an American thing. They're 
going to come for whatever party they choose to try and work on 
behalf of. And they're not devoted to either, in my experience. 
They're just about their own advantage. And they will be back.
    Senator King. That's my observation. I don't think Putin is 
a Republican or a Democrat. He's an opportunist.
    Director Comey. I think that's a fair statement.
    Senator King. With regard to several of these 
conversations, in his interview with Lester Holt on NBC the 
President said, ``I had dinner with him. He wanted to have 
dinner because he wanted to stay on.'' Is this an accurate 
statement?
    Director Comey. No, sir.
    Senator King. Did you in any way initiate that dinner?
    Director Comey. No. He called me at my desk at lunchtime, 
and asked me was I free for dinner that night. He called 
himself and said, ``Can you come over for dinner tonight?''
    And I said, ``Yes, sir.''
    He said, ``Will 6:00 work?'' I think he said 6 first. And 
then he said, ``I was going to invite your whole family, but 
we'll do that next time. I wanted you to come over. And is that 
a good time?''
    I said, ``Sir, whatever works for you.''
    And he then said, ``How about 6:30?''
    And I said, ``Whatever works for you, sir.'' And then I 
hung up and then I had to call my wife and break a date with 
her. I was supposed to take her out to dinner that night, and--
--
    Senator King. That's one of the all-time great excuses for 
breaking a date.
    [Laughter.]
    Director Comey. In retrospect, I would have--I love 
spending time with my wife. I wish I'd been there that night.
    [Laughter.]
    Senator King. That's one question I'm not going follow up, 
Mr. Comey.
    But, in that same interview the President said, ``In one 
case I called him and in one case he called me.'' Is that an 
accurate statement?
    Director Comey. No.
    Senator King. Did you ever call the President?
    Director Comey. No. I might--the only reason I'm hesitating 
is I think there was at least one conversation where I was 
asked to call the White House switchboard to be connected to 
him, but I never initiated a communication with the President.
    Senator King. And in his press conference on May 18th, the 
President was asked whether he had urged you to shut down the 
investigation into Michael Flynn. The President responded, 
quote, ``No, no. Next question.'' Is that an accurate 
statement?
    Director Comey. I don't believe it is.
    Senator King. Thank you.
    With regard to the question of him being under personal--
personally under investigation, does that mean that the dossier 
is not being reviewed or investigated or followed up on in any 
way?
    Director Comey. I obviously can't--I can't comment either 
way. I can't talk in an open setting about the investigation as 
it was when I was the head of the FBI. And obviously it's 
Director Mueller's, Bob Mueller's responsibility now, so I 
just--I don't know.
    Senator King. So clearly your statements to the President 
back in these various times when you assured him he wasn't 
under investigation were as of that moment. That's correct, is 
it not?
    Director Comey. Correct, correct.
    Senator King. Now, on the Flynn investigation, is it not 
true that Mr. Flynn was and is a central figure in this entire 
investigation of the relationship between the Trump campaign 
and the Russians?
    Director Comey. I can't answer that in an open setting, 
sir.
    Senator King. And certainly Mr. Flynn was part of the so-
called Russian investigation. Can you answer that question?
    Director Comey. I have to give you the same answer.
    Senator King. All right. We'll be having a closed session 
shortly, so we will follow up on that.
    In terms of his comments to you about--I think in response 
to Mr. Risch, to Senator Risch, you said he said, ``I hope you 
will hold back on that.'' But when you get a--when a President 
of the United States in the Oval Office says something like ``I 
hope'' or ``I suggest'' or ``would you,'' do you take that as a 
directive?
    Director Comey. Yes. Yes, it rings in my ear as kind of, 
``Will no one rid me of this meddlesome priest?''
    Senator King. I was just going to quote that. In 1170, 
December 29, Henry II said, ``Who will rid me of this 
meddlesome priest?'' And then, the next day he was killed, 
Thomas a Becket. That's exactly the same situation. We're 
thinking along the same lines.
    Several other questions and these are a little bit more 
detailed. What do you know about the Russian bank VEB?
    Director Comey. Nothing that I can talk about in an open 
setting. I mean, I know it----
    Senator King. Well, that takes care of my next three 
questions.
    Director Comey. I know it exists. Yes, sir.
    Senator King. You know it exists.
    What is the relationship of Ambassador--the ambassador from 
Russia to the United States, to the Russian intelligence 
infrastructure?
    Director Comey. Well, he's a diplomat who is the chief of 
mission at the Russian embassy, which employs a robust cohort 
of intelligence officers. And so surely he's witting of their 
very, very aggressive intelligence operations, at least some of 
it in the United States. I don't consider him to be an 
intelligence officer himself. He's a diplomat.
    Senator King. Did you ever--did the FBI ever brief the 
Trump administration about the advisability of interacting 
directly with Ambassador Kislyak?
    Director Comey. I think all I can say sitting here is there 
were a variety of defensive briefings given to the incoming 
Administration about the counterintelligence risk.
    Senator King. Back to Mr. Flynn, would closing out the 
Flynn investigation have impeded the overall Russian 
investigation?
    Director Comey. No. Well, unlikely, except to the extent--
there's always a possibility, if you have a criminal case 
against someone and you bring them and squeeze them, you flip 
them, and they give you information about something else. But I 
saw the two as touching each other, but separate.
    Senator King. With regard to your memos, isn't it true that 
in a court case when you're weighing evidence, contemporaneous 
memos and contemporaneous statements to third parties are 
considered probative in terms of the validity of testimony?
    Director Comey. Yes.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Cotton. No, excuse me. Senator 
Lankford.
    Senator Lankford. Director Comey, good to see you again.
    Director Comey. You, too.
    Senator Lankford. We've had multiple opportunities to be 
able to visit, as everyone on this dais has. And I appreciate 
you and your service and what you have done for the Nation for 
a long time, what you continue to do. I've told you before in 
the heat of last year, when we had an opportunity to visit 
personally, that I pray for you and for your family, because 
you do carry a tremendous amount of stress. And that is still 
true today.
    Director Comey. Thank you.
    Senator Lankford. Let me walk through a couple things with 
you. Your notes are obviously exceptionally important, because 
they give a very rapid account of what you wrote down and what 
you perceived to happen in those different meetings. Have you 
had the opportunity to be able to reference those notes when 
you were preparing the written statement that you put forth 
today?
    Director Comey. Yes, yes. I think nearly all of my written 
recordings of my conversations, I had a chance to review them 
before filing my statement.
    Senator Lankford. Do you have a copy of any of those notes, 
personally?
    Director Comey. I don't. I turned them over to Bob 
Mueller's investigators.
    Senator Lankford. The individual that you told about your 
memos, that then were sent on to the New York Times, do they 
have a copy of those memos or were they told orally of those 
memos?
    Director Comey. Had a copy, had a copy at the time.
    Senator Lankford. Do they still have a copy of those memos?
    Director Comey. That's a good question. I think so. I guess 
I can't say for sure sitting here, but I--I guess I don't know, 
but I think so.
    Senator Lankford. So the question is, could you ask them to 
hand that copy right back to you, so you could hand them over 
to this committee?
    Director Comey. Potentially.
    Senator Lankford. I would like to move that from 
``potential'' to ``see if we can ask that question,'' so we can 
have a copy of those. Obviously those notes are exceptionally 
important to us to be able to go through the process so we can 
continue to get to the facts as we see it. As you know, the 
written documents are exceptionally important.
    Director Comey. Yes.
    Senator Lankford. Are there other documents that we need to 
be aware of that you used in your preparation for your written 
statement that we should also have, that would assist us in 
helping with this?
    Director Comey. Not that I'm aware of, no.
    Senator Lankford. Past the February the 14th meeting, which 
is a very important meeting obviously, as we discuss the 
conversations here about Michael Flynn, when the President 
asked you about he hopes that you would let this go, and the 
conversation back and forth about him being a good guy. After 
that time, did the President ever bring up anything about 
Michael Flynn again to you? You had multiple other 
conversations you have documented with the President.
    Director Comey. No, I don't remember him ever bringing it 
up again.
    Senator Lankford. Did any member of the White House staff 
ever come to you and talk to you about letting go of the 
Michael Flynn case or dropping it or anything referring to 
that?
    Director Comey. No, nope.
    Senator Lankford. Did the director of national intelligence 
come to you and talk to you about that?
    Director Comey. No.
    Senator Lankford. Did anyone from the Attorney General's 
office, the Department of Justice, ask you about that?
    Director Comey. No.
    Senator Lankford. Did the head of NSA talk to you about 
that?
    Director Comey. No.
    Senator Lankford. The key aspect here is if this seems to 
be something the President's trying to get you to drop it, this 
seems like a pretty light touch to drop it, to bring it up at 
that moment the day after he had just fired Flynn, to come back 
in and say, I hope we can let this go. But then it never 
reappears again.
    Did it slow down your investigation or any investigation 
that may or may not be occurring with Michael Flynn?
    Director Comey. No, although I don't know there were any 
manifestations, outward manifestations of the investigation, 
between February 14th and when I was fired. So I don't know 
that the President had any way of knowing whether it was 
effective or not.
    Senator Lankford. Okay, that's fair enough. If the 
President wanted to stop an investigation, how would he do 
that? Knowing it's an ongoing criminal investigation or a 
counterintelligence investigation, would that be a matter of 
trying to go to you, you perceive, and to say, you make it 
stop, because he doesn't have the authority to stop? Or how 
would the President make an ongoing investigation stop?
    Director Comey. Again, I'm not a legal scholar. So smarter 
people answer this better, but I think as a legal matter, the 
President is the head of the Executive Branch and could direct, 
in theory--but we have important norms against this--but direct 
that anybody be investigated or anybody not be investigated. I 
think he has the legal authority because all of us ultimately 
report in the Executive Branch up to the President.
    Senator Lankford. Okay. Would that be to you? Would that be 
the Attorney General? Would that be to who that would do that?
    Director Comey. I Suppose he could do it to--if he wanted 
to issue a direct order, he could do it in any way. He could do 
it through the Attorney General or issue it directly to me.
    Senator Lankford. Well, is there any question that the 
President is not real fond of this investigation? I can think 
of multiple 140-word-character expressions that he's done 
publicly to express he's not fond of the investigation.
    I've heard you share before in this conversation that 
you're trying to keep the agents that are working on it away 
from any comment the President might have made. Quite frankly, 
the President has informed around 6 billion people that he's 
not real fond of this investigation.
    Do you think there's a difference in that?
    Director Comey. Yes.
    Senator Lankford. Okay. What would that be?
    Director Comey. I think there's a big difference in kicking 
superior officers out of the Oval Office, looking the FBI 
Director in the eye, and saying, ``I hope you'll let this go.'' 
I think if our--if the agents, as good as they are, heard the 
President of the United States did that there's a real risk of 
a chilling effect on their work. That's why we kept it so 
tight.
    Senator Lankford. Okay. You had mentioned before about some 
news stories and news accounts, but, without having to go into 
all the names and the specific times and to be able dip into 
all that, have there been news accounts about the Russia 
investigation, about collusion, about this whole event or 
accusations that as you read the story you were stunned about 
how wrong they got the facts?
    Director Comey. Yes. There have been many, many stories 
purportedly based on classified information about--well, about 
lots of stuff, but especially about Russia, that are just dead 
wrong.
    Senator Lankford. I was interested in your comment that you 
made as well, that the President said to you, if there were 
some satellite associates of his that did something wrong it 
would be good to find that out. That the President seemed to 
talk to you specifically on March the 30th and say, I'm 
frustrated that the word is not getting out that I'm not under 
investigation, but if there are people that are in my circle 
that are, let's finish the investigation. Is that how you took 
it, as well?
    Director Comey. Yes, sir. Yes.
    Senator Lankford. And then you made a comment earlier about 
the Attorney General, previous Attorney General, asking you 
about the investigation on the Clinton e-mails, saying that 
you'd been asked not to call it an ``investigation'' anymore, 
but to call it a ``matter.'' And you had said that confused 
you. Can you give us additional details on that?
    Director Comey. Well, it concerned me because we were at 
the point where we had refused to confirm the existence, as we 
typically do, of an investigation for months, and it was 
getting to a place where that looked silly, because the 
campaigns were talking about interacting with the FBI in the 
course of our work.
    The Clinton campaign at the time was using all kind of 
euphemisms--security review, matters, things like that--for 
what was going on. We were getting to a place where the 
Attorney General and I were both going to have to testify and 
talk publicly about. And I wanted to know, was she going to 
authorize us to confirm we had an investigation?
    And she said ``Yes,'' but don't call it that, call it a 
``matter.'' And I said, why would I do that? And she said, just 
call it a ``matter.''
    And, again, you look back in hindsight, you think should I 
have resisted harder? I just said, all right, it isn't worth--
this isn't a hill worth dying on and so I just said, okay, the 
press is going to completely ignore it. And that's what 
happened. When I said, we have opened a matter, they all 
reported the FBI has an investigation open.
    And so that concerned me because that language tracked the 
way the campaign was talking about the FBI's work and that's 
concerning.
    Senator Lankford. It gave the impression that the campaign 
was somehow using the same language as the FBI, because you 
were handed the campaign language and told to be able to use 
the campaign language.
    Director Comey. And again, I don't know whether it was 
intentional or not, but it gave the impression that the 
Attorney General was looking to align the way we talked about 
our work with the way a political campaign was describing the 
same activity, which was inaccurate.
    We had a criminal investigation open with, as I said 
before, the Federal Bureau of Investigation. We had an 
investigation open at the time, and so that gave me a queasy 
feeling.
    Senator Lankford. Thank you.
    Chairman Burr. Senator Manchin.
    Senator Manchin. Thank you Mr. Chairman.
    Thank you, Mr. Comey. I appreciate very much your being 
here.
    West Virginia is very interested in this hearing that we're 
having today. I've had over 600 requests for questions to ask 
you from my fellow West Virginians and most of them have been 
asked. And there's quite a few of them that were quite detailed 
that I'll ask in our classified hearing.
    I want to thank you, first of all, for coming and agreeing 
to be here, volunteering, but also volunteering to stay into 
the classified hearing.
    I don't know if you had a chance to watch our hearing 
yesterday.
    Director Comey. I watched part of it, yes, sir.
    Senator Manchin. And it was quite troubling. My colleagues 
here had some very pointed questions they wanted answers to. 
They weren't classified. They could have answered in this open 
setting. They refused to do so. So that even makes us much more 
appreciative of your cooperation.
    Sir, the seriousness of the Russian aggressions in our past 
elections and knowing that it'll be ongoing, as Senator King 
had alluded to, what's your concerns there? I mean, what should 
the American public understand? People said, ``Well, this is 
a--why are we worried about this? Why make such a big deal out 
of this Russian investigation?'' Can you tell me what your 
thoughts are?
    Director Comey. Yes, sir.
    Senator Manchin. And then the final thing is on this same 
topic. Did the President ever show any concern or interest or 
curiosity about what the Russians were doing?
    Director Comey. Thank you, Senator.
    As I said earlier, I don't remember any conversations with 
the President about the Russia election interference.
    Senator Manchin. Did he ever ask you any questions 
concerning this?
    Director Comey. Well, there was an initial briefing of our 
findings and I think there was conversation there--I don't 
remember it exactly--where he asked questions about what we had 
found and what our sources were and what our confidence level 
was. But after that, I don't remember anything.
    The reason this is such a big deal is we have this big, 
messy, wonderful country where we fight with each other all the 
time, but nobody tells us what to think, what to fight about, 
what to vote for, except other Americans, and that's wonderful 
and often painful. But we're talking about a foreign government 
that, using technical intrusion, lots of other methods, tried 
to shape the way we think, we vote, we act. That is a big deal 
and people need to recognize it.
    It's not about Republicans or Democrats. They're coming 
after America, which I hope we all love equally. They want to 
undermine our credibility in the face of the world. They think 
that this great experiment of ours is a threat to them, and so 
they're going to try to run it down and dirty it up as much as 
possible.
    That's what this is about. And they will be back, because 
we remain, as difficult as we can be with each other, we remain 
that shining city on the hill, and they don't like it.
    Senator Manchin. This is extremely important. It's 
extremely dangerous, what we're dealing with, and it's needed, 
is what you're saying.
    Director Comey. Yes, sir.
    Senator Manchin. Do you believe there were any tapes or 
recordings of your conversations with the President?
    Director Comey. It never occurred to me until the 
President's tweet. I'm not being facetious. I hope there are 
and I'll consent to the release of them.
    Senator Manchin. Both of you are in the same findings here. 
You both hope there's tapes and recordings.
    Director Comey. Well, I mean, all I can do is hope. The 
President surely knows whether he taped me, and if he did my 
feelings aren't hurt. Release the entire--release all the 
tapes. I'm good with it.
    Senator Manchin. Got you. Got you.
    Sir, do you believe that Robert Mueller, our new special 
investigator on Russia, will be thorough and complete, without 
political intervention? And would you be confident on his 
findings and recommendations?
    Director Comey. Yes. Bob Mueller is one of the finest 
people and public servants this country's ever produced. He 
will do it well. He is a dogged, tough person, and you can have 
high confidence that when it's done he's turned over all the 
rocks.
    Senator Manchin. You've been asked a wide variety of 
questions today and we're going to be hearing more, I'm sure, 
in our classified hearing. Something I'll often ask folks when 
they come here: what details of this saga should we be focusing 
on and what would you recommend us do differently, or to adjust 
our perspective on this?
    Director Comey. I don't know. One of the reasons that I'm 
pleased to be here is I think this committee has shown the 
American people, although we have two parties and we disagree 
about important things, we can work together when it involves 
the core interests of the country. So I would hope you'll just 
keep doing what you're doing. It's good in and of itself, but 
it's also a model, especially for kids, that we are a 
functioning, adult democracy.
    Senator Manchin. And you also mentioned you had, I think, 
what, six meetings--three times in person, six on the phone, 
nine times in conversation with the President. Did he ever at 
that time allude that you were not performing adequately, ever 
indicate that at all?
    Director Comey. Oh, no. In fact, the contrary, quite often. 
Yeah, he called me one day. I was about to get on a helicopter, 
the head of the DEA was waiting in the helicopter for me, and 
he just called to check in and tell me I was doing an awesome 
job, and wanted to see how I was doing. And I said, ``I'm doing 
fine, sir.'' And then I finished the call and got on the 
helicopter.
    Senator Manchin. Mr. Comey, do you believe you would have 
been fired if Hillary Clinton had become President?
    Director Comey. That's a great question. I don't know. I 
don't know.
    Senator Manchin. Do you have any thoughts about it?
    Director Comey. I might have been. I don't know. Look, I've 
said before that was an extraordinarily difficult and painful 
time. I think I did what I had to do. I knew it was going to be 
very bad for me personally, and the consequences of that might 
have been if Hillary Clinton was elected I might have been 
terminated. I don't know. I really don't.
    Senator Manchin. My final question will be, after the 
February 14th meeting in the Oval Office, you mentioned that 
you asked Attorney General Sessions to ensure that you were 
never left alone with the President. Did you ever consider why 
Attorney General Sessions was not asked to stay in the room?
    Director Comey. Oh, sure, I did and have. And, in that 
moment, I----
    Senator Manchin. Did you ever talk to him about it?
    Director Comey. No.
    Senator Manchin. You never had a discussion with Jeff 
Sessions on this?
    Director Comey. No, not at all.
    Senator Manchin. On any of your meetings?
    Director Comey. No. I think----
    Senator Manchin. Did he inquire? Did he show any inquiry 
whatsoever, what was that meeting about?
    Director Comey. No. You're right, I did say to him--I'd 
forgotten this--when I talked to him and said, ``You have to be 
between me and the President, and that's incredibly 
important,'' and I forget my exact words, I passed along the 
President's message about the importance of aggressively 
pursuing leaks of classified information, which is a goal I 
share. And I passed that along to the Attorney General, I think 
it was the next morning, in a meeting. But I did not tell him 
about the Flynn part.
    Senator Manchin. Do you believe this will rise to 
obstruction of justice?
    Director Comey. I don't know. That's Bob Mueller's job to 
sort that out.
    Senator Manchin. Thank you, sir.
    Mr. Chairman.
    Chairman Burr. Senator Cotton.
    Senator Cotton. Mr. Comey, you encouraged the President to 
release the tapes. Will you encourage the Department of Justice 
or your friend at Columbia or Mr. Mueller to release your 
memos?
    Director Comey. Sure.
    Senator Cotton. You said that you did not record your 
conversations with President Obama or President Bush in memos. 
Did you do so with Attorney General Sessions or any other 
senior member of the Trump Department of Justice?
    Director Comey. No.
    Senator Cotton. Did you----
    Director Comey. I think it--I'm sorry.
    Senator Cotton. Did you record conversations in memos with 
Attorney General Lynch or any other senior member of the Obama 
Department of Justice?
    Director Comey. No, not that I recall.
    Senator Cotton. In your statement for the record, you cite 
nine private conversations with the President, three meetings 
and two phone calls. There are four phone calls that are not 
discussed in your statement for the record. What happened in 
those phone calls?
    Director Comey. The President called me, I believe, shortly 
before he was inaugurated, as a follow-up to our conversation, 
private conversation on January the 6th. He just wanted to 
reiterate his rejection of the allegation and talk about he'd 
thought about it more and why he thought it wasn't true, the 
unverified and salacious parts. And during that call he asked 
me again, ``Hope you're going to stay, you're doing a great 
job.'' And I told him that I intended to.
    There was another phone call that I mentioned, I think it 
was--could have the date wrong--March the 1st, where he called 
just to check in with me as I was about to get on the 
helicopter.
    There was a secure call we had about an operational matter 
that was not related to any of this, about something the FBI 
was working on. He wanted to make sure that I understood how 
important he thought it was--a totally appropriate call.
    And then the fourth call--I'm probably forgetting. May have 
been the--I may have meant the call when he called to invite me 
to dinner. I'll think about as I'm answering other questions, 
but I think I got that right.
    Senator Cotton. Let's turn our attention to the underlying 
activity at issue here: Russia's hacking into those e-mails and 
releasing them and the allegations of collusion. Do you believe 
Donald Trump colluded with Russia?
    Director Comey. That's a question I don't think I should 
answer in an open setting. As I said, when I left we did not 
have an investigation focused on President Trump. But that's a 
question that'll be answered by the investigation, I think.
    Senator Cotton. Let me turn to a couple of statements by 
one of my colleagues, Senator Feinstein. She was the ranking 
member on this committee until January, which means she had 
access to information that only she and Chairman Burr did. 
She's now the senior Democrat on the Judiciary Committee, 
meaning she has access to the FBI that most of us don't.
    On May 3rd, on CNN's Wolf Blitzer's show she was asked, 
``Do you believe, do you have evidence that there was in fact 
collusion between Trump associates and Russia during the 
campaign?''
    She answered, ``Not at this time.''
    On May 18th, at the same show, Mr. Blitzer said, ``The last 
time we spoke, Senator, I asked if you had actually seen any 
evidence of collusion between the Trump campaign and the 
Russians, and you said to me, and I'm quoting you now--you 
said, 'Not at this time.' Has anything changed since we last 
spoke?''
    Senator Feinstein said, ``Well, no. No, it hasn't.''
    Do you have any reason to doubt those statements?
    Director Comey. I don't doubt that Senator Feinstein was 
saying what she understood. I just don't want to go down that 
path, first of all because I'm not in the government anymore; 
and answering in the negative I just worry leads me deeper and 
deeper into talking about the investigation in an open setting. 
I don't--I want to be--I'm always trying to be fair. I don't 
want to be unfair to President Trump. I'm not trying to suggest 
by my answer something nefarious, but I don't want to get into 
the business of saying not as to this person, not as to that 
person.
    Senator Cotton. On February 14th, the New York Times 
published a story the headline of which was, ``Trump Campaign 
Aides Had Repeated Contacts With Russian Intelligence.''
    You were asked earlier if that was an inaccurate story, and 
you said ``in the main.'' Would it be fair to characterize that 
story as almost entirely wrong?
    Director Comey. Yes.
    Senator Cotton. Did you have at the time that story was 
published any indication of any contact between Trump people 
and Russians, intelligence officers, other government 
officials, or close associates of the Russian government?
    Director Comey. That's one I can't answer sitting here.
    Senator Cotton. We can discuss that in a classified 
setting, then.
    I want to turn attention now to Mr. Flynn and the 
allegations of his underlying conduct, to be specific his 
alleged interactions with the Russian ambassador on the 
telephone, and then what he said to senior Trump administration 
officials and Department of Justice officials. I understand 
there are other issues with Mr. Flynn related to his receipt of 
foreign monies or disclosure of potential advocacy activity on 
behalf of foreign governments. Those are serious and credible 
allegations that I'm sure will be pursued, but I want to speak 
specifically about his interactions with the Russian 
ambassador.
    There was a story on January 23rd in the Washington Post 
that says--entitled, ``FBI reviewed Flynn's calls with Russian 
ambassador, but found nothing illicit.'' Is the story accurate?
    Director Comey. I don't want to comment on that, Senator, 
because I'm pretty sure the bureau has not confirmed any 
interception of communications. And so I don't want to talk 
about that in an open setting.
    Senator Cotton. Would it be improper for an incoming 
national security adviser to have a conversation with a foreign 
ambassador?
    Director Comey. In my experience, no.
    Senator Cotton. But you can't confirm or deny that the 
conversation happened, and we would need to know the contents 
of that conversation to know if it was in fact improper?
    Director Comey. Yeah, I don't think I can talk about that 
in an open setting. And again, I've been out of government now 
a month, so I also don't want to talk about things when it's 
now somebody else's responsibility. But maybe in the classified 
setting we can talk more about that.
    Senator Cotton. You stated earlier that there was an open 
investigation of Mr. Flynn in the FBI. Did you or any FBI agent 
ever sense that Mr. Flynn attempted to deceive you or made 
false statements to an FBI agent?
    Director Comey. I don't want to go too far. That was the 
subject of the criminal inquiry.
    Senator Cotton. Did you ever come close to closing the 
investigation on Mr. Flynn?
    Director Comey. I don't think I can talk about that in an 
open setting, either.
    Senator Cotton. We can discuss these more in a closed 
setting, then.
    Mr. Comey, in 2004 you were a part of a well-publicized 
event about an intelligence program that had been recertified 
several times, and you were acting Attorney General when 
Attorney General John Ashcroft was incapacitated due to 
illness. There was a dramatic showdown at the hospital here. 
The next day, you've said that you wrote a letter of 
resignation and signed it before you went to meet with 
President Bush to explain why he refused to certify it. Is that 
accurate?
    Director Comey. Yes, I think so.
    Senator Cotton. At any time in the three and half months 
you were the FBI Director during the Trump administration, did 
you ever write and sign a letter of recommendation and leave it 
on your desk?
    Director Comey. A letter of resignation? No, sir.
    Senator Cotton. Letter of resignation.
    Director Comey. No, sir.
    Senator Cotton. So despite all of the things that you've 
testified to here today, you didn't feel this rose to the level 
of an honest but serious difference of legal opinion between 
accomplished and skilled lawyers in that 2004 episode?
    Director Comey. I wouldn't characterize the circumstances 
in 2004 that way. But to answer, no, I didn't find--encounter 
any circumstance that led me to intend to resign, consider to 
resign. No, sir.
    Senator Cotton. Thank you.
    Chairman Burr. Senator Harris.
    Senator Harris. Director Comey, I want to thank you. You 
are now a private citizen and you are enduring a Senate 
Intelligence Committee hearing, and each of us get seven 
minutes instead of five, as yesterday, to ask you questions. So 
thank you.
    Director Comey. I'm between opportunities now, so----
    Senator Harris. Well, you are----
    [Laughter.]
    I'm sure you'll have future opportunities.
    You know, you and I are both former prosecutors. I'm not 
going to require you to answer. I just want to make a statement 
that in my experience of prosecuting cases, when a robber held 
a gun to somebody's head, and said, ``I hope you will give me 
your wallet,'' the word ``hope'' was not the most operative 
word at that moment. But you don't have to respond to that 
point.
    I have a series of questions to ask you, and they're going 
to start with, are you aware of any meetings between the Trump 
administration officials and Russian officials during the 
campaign that have not been acknowledged by those officials in 
the White House?
    Director Comey. That's not a--even if I remembered clearly, 
that's a not a question I can answer in an open setting.
    Senator Harris. Are you aware of any efforts by Trump 
campaign officials or associates of the campaign to hide their 
communications with Russian officials through encrypted 
communications or other means?
    Director Comey. I have to give you same answer, Senator.
    Senator Harris. Sure.
    In the course of the FBI's investigation, did you ever come 
across anything that suggested that communications, records, 
documents or other evidence had been destroyed?
    Director Comey. I think I've got to give you the same 
answer, because it would touch on investigative matters.
    Senator Harris. And are you aware of any efforts or 
potential efforts to conceal communications between campaign 
officials and Russian officials?
    Director Comey. I think I have to give you the same answer, 
Senator.
    Senator Harris. Thank you.
    As a former Attorney General, I have a series of questions 
about your connection with the Attorney General during the 
course of your tenure as Director. What is your understanding 
of the parameters of General Sessions' recusal from the Russia 
investigation?
    Director Comey. I think it's described in a written release 
or statement from DOJ, which I don't remember sitting here. But 
the gist was he would be recused from all matters relating to 
Russia and the campaign, or activities of Russia and the 2016 
election, I think, something like that.
    Senator Harris. So is your knowledge of the extent of his 
recusal based on the public statements he's made?
    Director Comey. Correct.
    Senator Harris. Okay. So was there any kind of memorandum 
issued from the Attorney General or the Department of Justice 
to the FBI outlining the parameters of his recusal?
    Director Comey. Not that I'm aware of.
    Senator Harris. And do you know if he reviewed any FBI or 
DOJ documents pertaining to the investigation before he was 
recused?
    Director Comey. I don't. I don't know.
    Senator Harris. And after he was recused, I'm assuming it's 
the same answer.
    Director Comey. Same answer.
    Senator Harris. And aside from any notice or memorandum 
that was not sent or was, what mechanism or processes were in 
place to ensure that the Attorney General would not have any 
connection with the investigation, to your knowledge?
    Director Comey. I don't know for sure. I know that he had 
consulted with career ethics officials that know how to run a 
recusal at DOJ, but I don't know what mechanism they set up.
    Senator Harris. And the Attorney General recused himself 
from the investigation, but do you believe it was appropriate 
for him to be involved in the firing of the chief investigator 
of that case, of that Russia interference?
    Director Comey. That's something I can't answer, sitting 
here. It's a reasonable question, but that would depend on a 
lot of things I don't know, like what did he know, what was he 
told, did he realize that the President was doing it because of 
the Russia investigation, things like that. I just don't know 
the answer.
    Senator Harris. You've mentioned in your written testimony 
and here that the President essentially asked you for a loyalty 
pledge. Are you aware of him making the same request of any 
other members of the Cabinet?
    Director Comey. I am not.
    Senator Harris. Do you know one way or another what he----
    Director Comey. I don't know one way or another. I never 
heard anything about it.
    Senator Harris. And you mentioned that you had the 
conversation where he hoped that you would let the Flynn matter 
go on February 14th or thereabouts. It's my understanding that 
Mr. Sessions was recused from any involvement in the 
investigation about a full two weeks later.
    To your knowledge, was the Attorney General--did he have 
access to information about the investigation in those interim 
two weeks?
    Director Comey. I don't--in theory, sure, because he's the 
Attorney General. I don't know whether he had any contact with 
any materials related to that.
    Senator Harris. To your knowledge, was there any directive 
that he should not have any contact with any information about 
the Russia investigation between the February 14th date and the 
day he was ultimately recused--or recused himself, on March 
2nd?
    Director Comey. Not to my knowledge. I don't know one way 
or another.
    Senator Harris. And did you speak to the Attorney General 
about the Russia investigation before his recusal?
    Director Comey. I don't think so, no.
    Senator Harris. Do you know if anyone in the Department, in 
the FBI, forwarded any documents or information or memos of any 
sort to the attention of the Attorney General before his 
recusal?
    Director Comey. I don't know of any, remember any, sitting 
here. It's possible, but I don't remember any.
    Senator Harris. Do you know if the Attorney General was 
involved, in fact involved, in any aspect of the Russia 
investigation after his recusal on the 2nd of March?
    Director Comey. I don't. I would assume not, but I don't--
let me say it this way. I don't know of any information that 
would lead me to believe he did something to touch the Russia 
investigation after the recusal.
    Senator Harris. In your written testimony, you indicate 
that you, after you were left alone with the President, you 
mentioned that it was inappropriate and should never happen 
again to the Attorney General. And, apparently he did not 
reply, and you write that he did not reply.
    What did he do, if anything? Did he just look at you? Was 
there a pause for a moment? What happened?
    Director Comey. I don't remember real clearly. I have a 
recollection of him just kind of looking at me. And there's a 
danger here I'm projecting onto him, so this may be a faulty 
memory, but I kind of got--his body language gave me the sense 
like, what am I going to do?
    Senator Harris. Did he shrug?
    Director Comey. I don't remember clearly. I think the 
reason I have that impression is I have some recollection of 
almost an imperceptible, like, what am I going to do? But I 
don't have a clear recollection of that. He didn't say 
anything.
    Senator Harris. And on that same February 14th meeting, you 
said you understood the President to be requesting that you 
drop the investigation. After that meeting, however, you 
received two calls from the President, March 30th and April 
11th, where the President talked about a cloud over his 
presidency.
    Has anything you've learned in the months since your 
February 14th meeting changed your understanding of the 
President's request? I guess it would be what he has said in 
public documents or public interviews?
    Director Comey. Correct.
    Senator Harris. And is there anything about this 
investigation that you believe is in any way biased or is not 
being informed by a process of seeking the truth?
    Director Comey. No. The appointment of a special counsel 
should offer great, especially given who that person is, great 
comfort to Americans, no matter what your political affiliation 
is, that this will be done independently, competently, and 
honestly.
    Senator Harris. And do you believe that he should have full 
authority, Mr. Mueller, to be able to pursue that 
investigation?
    Director Comey. Yes, and, knowing him well over the years, 
if there's something that he thinks he needs, he will speak up 
about it.
    Senator Harris. Do you believe he should have full 
independence?
    Director Comey. Oh, yeah. And he wouldn't be part of it if 
he wasn't going to get full independence.
    Senator Harris. Thank you.
    Chairman Burr. Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Mr. Comey, I'll repeat what I've said at previous hearings, 
that I believe you're a good and decent man who has been dealt 
a very difficult hand, starting back with the Clinton e-mail 
investigation. And I appreciate your willingness to appear here 
today voluntarily and answer our questions and cooperate with 
our investigation.
    As a general matter, if an FBI agent has reason to believe 
that a crime has been committed, do they have a duty to report 
it?
    Director Comey. That's a good question. I don't know that 
there's a legal duty to report it. They certainly have a 
cultural, ethical duty to report it.
    Senator Cornyn. You're unsure whether they would have a 
legal duty?
    Director Comey. It's a good question. I've not thought 
about it before. I don't know where the legal--there's a 
statute that prohibits misprision of a felony, knowing of a 
felony and taking steps to conceal it. But this is a different 
question.
    And so, look, let me be clear. I would expect any FBI agent 
who has reason--information about a crime being committed to 
report it.
    Senator Cornyn. Me, too.
    Director Comey. But where you rest that obligation, I don't 
know. It exists.
    Senator Cornyn. And let me ask you as a general 
proposition, if you're trying to make an investigation go away, 
is firing an FBI director a good way to make that happen? By 
that, I mean----
    Director Comey. Yeah, it doesn't make a lot of sense to me, 
but I'm obviously hopelessly biased, given that I was the one 
fired.
    [Laughter.]
    Senator Cornyn. I understand it's personal.
    Director Comey. No; given the nature of the FBI, I meant 
what I said. There's no indispensable people in the world, 
including at the FBI. There's lots of bad things about me not 
being at the FBI. Most of them are for me. But the work's going 
to go on as before.
    Senator Cornyn. So nothing that's happened that you've 
testified to here today has impeded the investigation of the 
FBI or Director Mueller's commitment to get to the bottom of 
this from the standpoint of the FBI and the Department of 
Justice. Would you agree with that?
    Director Comey. Correct. Especially the appointment of 
former Director Mueller is a critical part of that equation.
    Senator Cornyn. Let me take you back to the Clinton e-mail 
investigation. I think you've been cast as a hero or a villain, 
depending on whose political ox is being gored, at many 
different times during the course of the Clinton e-mail 
investigation, and even now perhaps.
    But you clearly were troubled by the conduct of the sitting 
Attorney General, Loretta Lynch, when it came to the Clinton e-
mail investigation. You mentioned the characterization that 
you'd been asked to accept that this was a ``matter'' and not a 
criminal investigation, which you've said it was.
    There was the matter of President Clinton's meeting on the 
tarmac with the sitting Attorney General at a time when his 
wife was subject to a criminal investigation. And you've 
suggested that perhaps there are other matters that you may be 
able to share with us later on in a classified setting.
    But it seems to me that you clearly believe that Loretta 
Lynch, the Attorney General, had an appearance of a conflict of 
interest on the Clinton e-mail investigation. Is that correct?
    Director Comey. I think that's fair. I didn't believe she 
could credibly decline that investigation, at least not without 
grievous damage to the Department of Justice and to the FBI.
    Senator Cornyn. And under Department of Justice and FBI 
norms, wouldn't it have been appropriate for the Attorney 
General, or, if she had recused herself--which she did not do--
for the Deputy Attorney General to appoint a special counsel?
    That's essentially what's happened now with Director 
Mueller. Would that have been an appropriate step in the 
Clinton e-mail investigation in your opinion?
    Director Comey. Certainly a possible step, yes, sir.
    Senator Cornyn. And were you aware that Ms. Lynch had been 
requested numerous times to appoint a special counsel and had 
refused?
    Director Comey. Yes, from--I think Congress had, members of 
Congress had repeatedly asked. Yes, sir.
    Senator Cornyn. Yours truly did on multiple occasions.
    And that heightened your concerns about the appearance of a 
conflict of interest with the Department of Justice, which 
caused you to make what you have described as an incredibly 
painful decision to basically take the matter up yourself and 
led to that July press conference.
    Director Comey. Yes, sir. After President Clinton, former 
President Clinton, met on the plane with the Attorney General, 
I considered whether I should call for the appointment of a 
special counsel and had decided that that would be an unfair 
thing to do, because I knew there was no case there. We had 
investigated it very, very thoroughly. I know this is a subject 
of passionate disagreement, but I knew there was no case there. 
And calling for the appointment of a special counsel would be 
brutally unfair because it would send the message, aha, there's 
something here. That was my judgment. Again, lots of people 
have different views of it. But that's how I thought about it.
    Senator Cornyn. Well, if the special counsel had been 
appointed, they could've made that determination that there was 
nothing there and declined to pursue it, right?
    Director Comey. Sure, but it would've been many months 
later or a year later.
    Senator Cornyn. Let me just ask you to--given the 
experience of the Clinton e-mail investigation and what 
happened there, do you think it's unreasonable for anyone, any 
President who has been assured on multiple occasions that he's 
not the subject of an FBI investigation, do you think it's 
unreasonable for them to want the FBI Director to publicly 
announce that so that this cloud over his Administration would 
be removed?
    Director Comey. I think that's a reasonable point of view. 
The concern would be, obviously, because if that boomerang 
comes back, it's going to be a very big deal, because there 
will be a duty to correct.
    Senator Cornyn. Well, we saw that in the Clinton e-mail 
investigation, of course.
    Director Comey. Yes, I recall that.
    Senator Cornyn. I know you do.
    So let me ask you, finally, in the minute that we have 
left--there was this conversation back and forth about loyalty, 
and I think we all appreciate the fact that an FBI Director is 
a unique public official in the sense that he's a political 
appointee in one sense, but he has a duty of independence to 
pursue the law pursuant to the Constitution and laws of the 
United States.
    And so when the President asked you about loyalty, you got 
in this back-and-forth about, well, I'll pledge you my honesty. 
And then it looks like, from what I've read, you agreed upon 
honest loyalty or something like that. Is that the 
characterization?
    Director Comey. Yes.
    Senator Cornyn. Thank you very much.
    Director Comey. Thank you, sir.
    Chairman Burr. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, Director Comey.
    There have been press reports that the President, in 
addition to asking you to drop the Flynn investigation, has 
asked other senior intelligence officials to take steps which 
would tend to undermine the investigation into Russia. There 
have been reports that he's asked DNI Coats and Admiral Rogers 
to make public statements exonerating him or taking the 
pressure off him, and also reports about Admiral Rogers and 
Director Pompeo, to intervene and reach out to the FBI and ask 
them.
    Are you aware of any of these or do you have any 
information with respect to any of these allegations?
    Director Comey. I don't. I'm aware of the public reporting, 
but I had no contact, no conversation with any of those leaders 
about that subject.
    Senator Reed. Thank you.
    You have testified that you interpret the discussion with 
the President about Flynn as a direction to stop the 
investigation. Is that correct?
    Director Comey. Yes.
    Senator Reed. You've testified that the President asked you 
to lift the cloud by essentially making public statement that 
exonerated him and perhaps others. You refused, correct?
    Director Comey. I didn't do it. I didn't refuse the 
President. I told him we would see what we could do, and then 
the second time he called, I told him in substance, that's 
something your lawyer will have to take up with the Justice 
Department.
    Senator Reed. And part of the underlying logic that we've 
discussed many times throughout this morning is the duty to 
correct. That is one of--a theoretical issue, but also a very 
practical issue. Was your feeling that the direction of the 
investigation could in fact include the President?
    Director Comey. Well, in theory. I mean, as I explained, 
the concern of one of my senior leader colleagues was if you're 
looking at potential coordination between the campaign and 
Russia, the person at the head of the campaign is the 
candidate. So logically, this person argued, the candidate's 
knowledge, understanding, will logically become a part of your 
inquiry if it proceeds.
    And so I understood that argument. My view was that what I 
said to the President was accurate and fair, and fair to him. I 
resisted the idea of publicly saying it, although if the 
Justice Department had wanted to I would have done it, because 
of the duty to correct and the slippery slope problem.
    Senator Reed. And again, also you've testified that the 
President asked you repeatedly to be loyal to him, and you 
responded you would be honestly loyal, which is I think your 
way of saying, ``I'll be honest, and I'll be the head of the 
FBI and independent.'' Is that fair?
    Director Comey. Correct. I tried ``honest'' first. And 
also--I mean, you see it in my testimony--also tried to explain 
to him why it's in his interest and every President's interest 
for the FBI to be apart in a way, because its credibility is 
important to a President and to the country.
    And so I tried to hold the line, hold the line. It got very 
awkward, and I then said, ``You'll always have honesty from 
me.'' He said, ``honest loyalty,'' and then I acceded to that 
as a way to end this awkwardness.
    Senator Reed. At the culmination of all these events, 
you're summarily fired, without any explanation or anything 
else?
    Director Comey. Well, there was an explanation. I just 
don't buy it.
    Senator Reed. Well, yes. So you're fired. So do you believe 
that you were fired because you refused to take the President's 
direction? Is that the ultimate reason?
    Director Comey. I don't know for sure. I know I was fired. 
Again, I take the President's words. I know I was fired because 
something about the way I was conducting the Russia 
investigation was in some way putting pressure on him, in some 
way irritating him, and he decided to fire me because of that.
    Senator Reed. Now----
    Director Comey. I can't go farther than that.
    Senator Reed. The Russian investigation, as you have 
pointed out, and as all my colleagues have reflected, is one of 
the most serious hostile acts against this country in our 
history. Undermining the very core of our democracy and our 
elections is not a discrete event. It will likely occur--it's 
probably being prepared now for 2018 and 2020 and beyond. And 
yet the President of the United States fires you because, in 
your own words, some relation to this investigation.
    And then he shows up in the Oval Office with the Russian 
foreign minister. First, after classifying you as crazy and a 
real nut job, which I think you've effectively disproved this 
morning, he said, ``I faced great pressure because of Russia. 
That's taken off.'' Your conclusion would be that the 
President, I would think, is downplaying the seriousness of 
this threat, in fact took specific steps to stop a thorough 
investigation of the Russian influence; and also, from what 
you've said or what has been said this morning, doesn't seem 
particularly interested in these hostile threats by the 
Russians? Is that fair?
    Director Comey. I don't know that I can agree to that level 
of detail. There's no doubt that it's a fair judgment, it's my 
judgment, that I was fired because of the Russia investigation. 
I was fired in some way to change--or the endeavor was to 
change the way the Russia investigation was being conducted.
    That is a very big deal, and not just because it involves 
me. The nature of the FBI and the nature of its work requires 
that it not be the subject of political consideration. And on 
top of that you have the Russia investigation itself is vital 
because of the threat. And I know I should have said this 
earlier, but it's obvious: If any Americans were part of 
helping the Russians do that to us, that is a very big deal. 
And I'm confident that if that is the case, Director Mueller 
will find that evidence.
    Senator Reed. Finally, the President tweeted that ``James 
Comey better hope that there are no tapes of our conversation 
before he starts leaking to the press.'' Was that a rather 
unsubtle attempt to intimidate you from testifying and 
intimidate anyone else who seriously crosses his path, of not 
doing it?
    Director Comey. I'm not going to sit here and try and 
interpret the President's tweets. To me, its major impact was, 
as I said, it occurred to me in the middle of the night, holy 
cow, there might be tapes. And if there are tapes, it's not 
just my word against his on the direction to get rid of the 
Flynn investigation.
    Senator Reed. Thank you very much.
    Chairman Burr. Senator McCain.
    Senator McCain. In the case of Hillary Clinton, you made 
the statement that there wasn't sufficient evidence to bring a 
suit against her, although it had been very careless in their 
behavior. But you did reach a conclusion in that case that it 
was not necessary to further pursue her. Yet, at the same time, 
in the case of Mr. Comey you said that there was not enough 
information to make a conclusion.
    Tell me the difference between your conclusion as far as 
former Secretary Clinton is concerned and Mr. Trump?
    Director Comey. The Clinton investigation was a completed 
investigation that the FBI had been deeply involved in, and so 
I had an opportunity to understand all the facts and apply 
those facts against the law as I understood them. This 
investigation was underway, still going when I was fired. So 
it's nowhere near in the same place. At least, it wasn't when I 
was----
    Senator McCain. But it's still ongoing?
    Director Comey. Correct, so far as I know. It was when I 
left.
    Senator McCain. That investigation was going on. This 
investigation is going on. You reached separate conclusions.
    Director Comey. No, that one was done. The----
    Senator McCain. That investigation of any involvement of 
Secretary Clinton or any of her associates is completed?
    Director Comey. Yes, as of July the 5th the FBI completed 
its investigative work, and that's what I was announcing, what 
we had done and what we had found.
    Senator McCain. Well, at least in the minds of this member, 
there's a whole lot of questions remaining about what went on, 
particularly considering the fact that, as you mention, it's a, 
quote, ``big deal'' as to what went on during the campaign.
    So I'm glad you concluded that part of the investigation, 
but I think that the American people have a whole lot of 
questions out there, particularly since you just emphasized the 
role that Russia played. And obviously, she was a candidate for 
President at the time, so she was clearly involved in this 
whole situation where fake news, as you've just described it, 
``big deal,'' took place.
    You're going to have to help me out here. In other words, 
we're complete, the investigation of anything that former 
Secretary Clinton had to do with the campaign is over and we 
don't have to worry about it anymore?
    Director Comey. With respect to Secretary--I'm not--I'm a 
little confused, Senator. With respect to Secretary Clinton----
    Senator McCain. Yeah.
    Director Comey [continuing]. We investigated a criminal 
investigation in connection with her use of a personal e-mail 
server----
    Senator McCain. I understand.
    Director Comey [continuing]. And that's the investigation I 
announced the conclusion of on July 5th.
    Senator McCain. So--but, at the same time you made the 
announcement there would be no charges brought against then-
Secretary Clinton for any activities involved in the Russia 
involvement in our, engagement in our election. I don't quite 
understand how you could be done with that, but not completely 
done with the whole investigation of their attempt to affect 
the outcome of our election.
    Director Comey. No. I'm sorry. We're not--at least when I 
left, when I was fired on May the 9th, there was still an open, 
active investigation to understand the Russian efforts and 
whether any Americans worked with them.
    Senator McCain. But you reached the conclusion that there 
was no reason to bring charges again Secretary Clinton. So you 
reached a conclusion.
    In the case of Mr. Comey, you--President Comey----
    Director Comey. No, sir.
    Senator McCain [continuing]. I mean, excuse me--in the case 
of President Trump, you have an ongoing investigation. So you 
got one candidate who you're done with and another candidate 
that you have a long way to go. Is that correct?
    Director Comey. I don't know how far the FBI has to go, but 
yes, the Clinton e-mail investigation was completed. The 
investigation of Russia's efforts in connection with the 
election and whether there was any coordination and, if so, 
with whom, between Russia and the campaign----
    Senator McCain. You just made it--you just made it----
    Director Comey [continuing]. Was ongoing when I left.
    Senator McCain. You just made it clear in what you said 
this is a, quote, ``big deal,'' unquote.
    I think that it's hard to reconcile. In one case you reach 
a complete conclusion and on the other side you have not, and 
you--in fact, obviously, there's a lot more there, as we know, 
as you called it a, quote, ``big deal.'' She's one of the 
candidates. But in her case you say there will be no charges, 
and in the case of President Trump the investigation continues.
    What has been brought out in this hearing is more and more 
emphasis on the Russian engagement and involvement in this 
campaign. How serious do you think this was?
    Director Comey. Very serious. But I want to say something 
to be clear. We have not announced, and there was no 
predication to announce, an investigation of whether the 
Russians may have coordinated with Secretary Clinton's 
campaign. Secretary Clinton's campaign----
    Senator McCain. No, but they may not have been involved 
with her campaign. They were involved with the entire 
presidential campaign, obviously.
    Director Comey. Of course. Yes, sir. And that is an 
investigation that began last summer and so far as I'm aware 
continues.
    Senator McCain. So both President Trump and former 
candidate Clinton are both involved in the investigation. Yet 
one of them you said there's going to be no charges, and the 
other one, the investigation continues. Well, I think there's a 
double standard there, to tell you the truth.
    Then when the President said to you--you talked about the 
April 11th phone call and he said, quote, ``Because I've been 
very loyal to you, very loyal. We had that thing, you know.'' 
Did that arouse your curiosity as what, quote, ``that thing'' 
was?
    Director Comey. Yes.
    Senator McCain. Why didn't you ask him?
    Director Comey. It didn't seem to me to be important for 
the conversation we were having to understand it. I took it to 
be some--an effort to communicate to me that there is a 
relationship between us where, I've been good to you, you 
should be good to me.
    Senator McCain. Yeah, but I think it would intensely arouse 
my curiosity if the President of the United States said ``We 
had that thing, you know.'' I'd like to know what the hell that 
thing is, particularly if I'm the Director of the FBI.
    Director Comey. Yeah, I get that, Senator. Honestly, I'll 
tell you what. This is speculation, but what I concluded at the 
time is in his memory he was searching back to our encounter at 
the dinner and was preparing himself to say, ``I offered 
loyalty to you, you promised loyalty to me.'' And all of a 
sudden his memory showed him that did not happen, and I think 
he pulled up short. That's just a guess, but I've had a lot of 
conversations with humans over the years----
    Senator McCain. I think I would have had some curiosity if 
it had been about me, to be honest with you.
    So are you aware of anything that would believe you to 
believe that the President or the members of the Administration 
or members of the campaign could potentially be used to coerce 
or blackmail the Administration?
    Director Comey. That's a subject for investigations, not 
something I can comment on sitting here.
    Senator McCain. But you've reached that conclusion as far 
as Secretary Clinton was concerned. But you're not reaching a 
conclusion as far as this Administration is concerned. Are you 
aware of anything that would lead you to believe that 
information exists that could coerce members of the 
Administration or blackmail the Administration?
    Director Comey. That's not a question I can answer, 
Senator.
    Chairman Burr. The Senator's time has expired.
    Senator McCain. Thank you.
    Chairman Burr. All time has expired for the hearing. Can I 
say for members, we'll reconvene promptly at 1:00 p.m. in the 
hearing room. We have a vote scheduled for 1:45. I would 
suggest that all members promptly be there at 1:00 o'clock. We 
have about three minutes----
    I'd like to have order. Photographers--photographers, 
return to where you were, please. This hearing's not adjourned 
yet. Either that, or we'll remove you.
    To members, we have about three minutes of updates that we 
would love to cover as soon as we get into the closed session, 
before we have an opportunity to spend some time with Director 
Comey. Based on our agreement, it would be my intentions to 
adjourn that closed hearing between 2:00 and 2:10 so that 
members can go vote, and I would urge you to eat at that time.
    Jim, several of us on this committee have had the 
opportunity to work with you since you walked in the door. I 
want to say personally, on behalf of all the committee members, 
we're grateful to you for your service to your country, not 
just in the capacity as FBI Director, but as prosecutor and, 
more importantly, being somebody that loves this country enough 
to tell it like it is.
    I want to say to your workforce that we're grateful to them 
with the level of cooperation that they have shown us, with the 
trust we've built between both organizations, the Congress and 
the bureau. We couldn't do our job if it wasn't for their 
willingness to share candidly with us the work that we need to 
see.
    This hearing's the ninth public hearing this committee has 
had this year. That is twice the historical year-long average 
of this committee. I think the Vice Chairman and my's biggest 
challenge when this investigation has concluded is to return 
our hearings to the secrecy of a closed hearing, to encourage 
our members not to freely talk about intelligence matters 
publicly and to respect the fact that we have a huge job. And 
that's to represent the entire body of the United States Senate 
and the American people, to make sure that we work with the 
intelligence community to provide you the tools to keep America 
safe, and that you do it within the legal limit, or those 
limits that are set by the Executive Branch.
    We could not do it if it wasn't for a trusted partnership 
that you have been able to lead and others before you. So as we 
depart from this, this is a pivotal hearing in our 
investigation. We're grateful to you for the professionalism 
you've shown, and your willingness.
    I will turn to the Vice Chairman.
    Vice Chairman Warner. I simply want to echo, one, again the 
thanks for your appearance. And there clearly still remain a 
number of questions. And the one thing I want to commit to you 
and, more importantly, I think the Chairman and I want to 
commit to all those who are still potentially watching and 
following, there are still a lot of unanswered questions and 
we're going to get to the bottom of this. We're going to get 
the facts out. The American people deserve to know.
    There's the questions around implications of Trump 
officials and the Russians, but there's also the macro issue of 
what the Russians did and continue to do. And I think it is 
very important that all Americans realize that threat is real, 
it is continuous. It is not just towards our Nation. It is 
towards all Western democracies. And we have to come to a 
solution set.
    Thank you, Mr. Chairman.
    Chairman Burr. Director Comey, thank you once again on 
behalf of the committee.
    This hearing's adjourned.
    [Whereupon, at 12:12 p.m., the hearing was adjourned.]
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
